<html>
<title> - FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





    FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 23, 2004

                               __________

                           Serial No. 108-158

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-492                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
MARSHA BLACKBURN, Tennessee                      ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
               Elizabeth Meyer, Professional Staff Member
                         Nicole Garrett, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 23, 2004.................................     1
Statement of:
    Anderson, Ed, vice president/CFO, Compassion International...    75
    Cote, Bob, Step 13, Denver, CO...............................    86
    Cowles, Reverend Dean, president, YouthPartnersNet...........    59
    Haley, Mike, manager of gender issues, Focus on the Family...    24
    Jaramillo, Jackie, Faith Partners............................    84
    Keller, Frank, senior director of constituent services, Focus 
      on the Family..............................................    11
    Larimore, Walter L., vice president of medical outreach, 
      Focus on the Family........................................    16
    Littrell, Sharon, executive director of Interfaith 
      Hospitality Network........................................    57
    Minnery, Tom, vice president of public policy, Focus on the 
      Family.....................................................    27
    Robinson, Jean, Denver Urban Ministry........................    73
    Tollefson, Dean E., Community Ministers Unlimited............    55
    Whetstone, Steven, Feed the Children.........................    42
    Wooten, Wilfred, senior director of counseling, Focus on the 
      Family.....................................................    10
Letters, statements, etc., submitted for the record by:
    Anderson, Ed, vice president/CFO, Compassion International, 
      prepared statement of......................................    78
    Cowles, Reverend Dean, president, YouthPartnersNet, prepared 
      statement of...............................................    62
    Haley, Mike, manager of gender issues, Focus on the Family, 
      prepared statement of......................................    25
    Keller, Frank, senior director of constituent services, Focus 
      on the Family, prepared statement of.......................    14
    Larimore, Walter L., vice president of medical outreach, 
      Focus on the Family, prepared statement of.................    18
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Whetstone, Steven, Feed the Children, prepared statement of..    45

 
    FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES

                              ----------                              


                        FRIDAY, JANUARY 23, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                              Colorado Springs, CO.
    The subcommittee met, pursuant to notice, at 9:14 a.m., at 
City Hall, Third Floor, 107 North Nevada Avenue, Colorado 
Springs, CO, Hon. Mark E. Souder (chairman of the subcommittee) 
Presiding.
    Present: Representatives Souder and Hefley.
    Staff present: Elizabeth Meyer, professional staff member 
and counsel; and Nicole Garrett, clerk.
    Mr. Souder. The subcommittee will come to order. We're 
pleased to have Congressman Hefley, your local Congressman, 
here. I served under him on the National Parks Subcommittee, 
and I worked with him as well on many other issues, and he's 
been a great leader in Washington. I'm going to start with an 
opening statement that explains a little bit of what we're 
doing here today.
    I thank you all for joining us today as we continue our 
discussion on the role of faith-based organizations in the 
provision of social services. I'm very pleased to be here in 
Colorado Springs.
    Scores of dedicated men and women open their hearts and 
homes to the less fortunate each and every day. They do this 
not for the glory of public recognition or for the money but 
for the simple fact that their faith calls them--demands them--
to action. They are committed to improving the lives of their 
neighbor, no matter the sacrifice to their own safety and 
comfort. Often their only reward, which they will tell you is 
the best reward, is the knowledge that they have restored hope 
to someone who had been suffering.
    The men and women who run the countless faith-based social 
service organizations in neighborhoods all across the country 
are often the only people willing to tackle the tough problems 
because frequently the rest of us take an out-of-sight, out-of-
mind approach to issues that make us uncomfortable.
    If, in the United States, we had an unlimited amount of 
money, we'd be able to fund every organization that is 
effectively providing social services. The hard reality is that 
we don't have unlimited resources. So we have to find a way to 
get the dollars we do have into the most effective agencies in 
the neighborhood.
    Frequently, that agency is a faith-based organization. 
Leaders of the many faith-based agencies I've had the privilege 
to visit tell me that they are successful because they look 
beyond the immediate need. Their focus is helping the client 
regain hope and change their life.
    These men and women truly make a difference, not only in 
the life of the client, but in the community as a whole. We 
need to determine how we can best encourage and support the 
work that they do without asking them to compromise their 
beliefs.
    We've been having this discussion in Washington for quite 
some time. What I find to be most frustrating is the tendency 
to lose sight of the reason we are having the discussion in the 
first place.
    We know that faith-based organizations are effectively 
transforming lives and communities. Where the discussion gets 
bogged down is in the legal questions. We need to refocus the 
discussion on what makes a faith-based organization successful. 
What is it that makes them effective?
    The fact that faith-based organizations are effective is 
the reason this discussion began in the first place. It is time 
to listen to the providers tell us how we can best assist them 
in their work.
    I doubt that government strings and bureaucratic red tape 
are something that they're actively seeking. I believe one of 
the best ways that we as legislators can help is not by giving 
you more government strings to deal with, but by helping to 
facilitate new relationships among the providers of social 
services and the foundations that provide financial and 
technical assistance to faith-based and community 
organizations. Today we have the great opportunity to talk with 
providers of a range of faith-based services. We need to 
understand how the unique element of faith impacts the 
structure and success of these programs. It is also important 
that we understand how your programs transform lives by 
building self-confidence and self-esteem. Over the last several 
months, we have heard from faith-based providers in San 
Antonio, TX; Nashville, TN; Chicago, IL; Charlotte, NC, and 
last week in Watson and Los Angeles, CA.
    Our witnesses today represent just a small fraction of the 
countless faith-based organizations that are reaching out to 
not only the hurting in Colorado, but around the world, as 
well. I expect that our witnesses today will provide us with 
valuable insights into their work, and the needs of the 
community. Most importantly, they will help us identify areas 
and methods by which the government can best assist community 
organizations of all types to provide the best possible care 
for people in need. I very much look forward to the testimony 
today.
    I, again, add that's the general introduction that I give 
for each of the hearings. I can add just a few other comments 
to put this in context.
    The subcommittee that I chair is part of a government-
formed oversight committee. We have jurisdiction primarily over 
narcotics, in both authorizing and oversight on narcotics and 
all drug policy in the United States. But we also, then, have 
oversight over a series of different agencies, including HSS, 
HUD, the Department of Education, Justice, and the Office of 
Faith-Based. And in that, we're the only committee that has 
oversight jurisdiction over the Office of Faith-Based and the 
White House. The actual legislation that is passed comes 
through other committees, as far as monitoring what is going 
on, and trying to shape what's going on on different issues.
    I wanted to do it, because I've personally been the House 
leader on many of the amendments that happened over the years 
when then-Senator Ashcroft and Coates did the first faith-based 
initiative in welfare reform, I think it was about 1995 or 
1996.
    I carried the House amendment that allowed faith-based 
groups to be eligible for the funding. Then as we moved future 
pieces of legislation through, we had more and more controversy 
related to it, in juvenile justice, in Head Start, in the 
fatherhood initiative, in HUD.
    But four passed both Houses. President Clinton signed four 
of those into law. The latest part of the faith-based 
initiative would be tax reform. Compassion Capital would help 
to develop capacity, and the grant portion that would broaden 
it beyond those single and make it more permanent.
    That bogged down over hiring practices predominantly. That 
is not the only thing. Because that is merely one thing that is 
related to the faith-based element where we focused on the 
legal issues. And we're going to finish with one in Washington 
where we focus on legal issues. And although it comes up in 
every hearing and there are disagreements on how critical 
hiring practices and so on, the focus here is not predominantly 
that.
    A couple of other things. This is an oversight committee. 
The full committee, for example, after the Republicans took 
over Congress, you'll see that we have to swear in all the 
witnesses in this committee. There have been people prosecuted 
for perjury in this committee. We've done things like the Waco 
oversight to who hired Craig Livingstone, Whitewater, China. 
Most of those types of investigations in Congress occurred 
through this committee, because you have authorizing 
committees, appropriation committees, and our committee sees 
how it's being implemented.
    That kind of gives you the context of what we're doing 
here. It may or may not lead to different legislation, although 
all of us work on different committees to support that, much of 
what's being done is by Executive order. Therefore, we work 
with that generally.
    That kind of puts it in the process of this 2-year cycle. 
We're going to do a 2-year report, which will have information, 
in addition to the hearings, in it. Like we did last cycle on 
Homeland security. We held a series of hearings on both 
borders. We did this for 2 years and issued that report.
    I'm on the Homeland security committee, on the border 
subcommittee, and Congressman Camp, who's a member of that, 
said this is the base and the best outline of that. We want to 
have a similar document for faith-based. So when people look at 
the national debate, while there have been a few Washington 
hearings as the bills have moved through, it's often only a 
small part of that debate. We're going to have a series of 
hearings on the subject.
    One last comment. By House rules, you have to have either a 
Democrat present in a quorum, or you can get a waiver. The 
ranking democrat is Elijah Cummings, who heads my caucus, and 
we have a very good relationship. We've accommodated Democratic 
issues as they've moved through. We've had different hearings. 
We've been able to move a number of major bills on a bipartisan 
basis.
    Therefore, we've been given a lot of flexibility in this 
committee. And that's why today, you'll see there will be a 
fair amount of debate and discussion. Some hearings we have 
more of that. Some hearings there will be more witnesses from 
the Democratic side. We have members.
    In Washington, there are fairly rigid rules as far as 
whether you're on the subcommittee or the full committee. And 
Congressman Waxman, who's the ranking member, wants us to 
enforce those rules. But when we go into people's districts, 
many of the districts have been in the Democratic districts.
    But today Congressman Hefley is here. So I'll ask for a 
rule waiver, so that he can participate in the hearing today. 
He's not going to be able to be here for most of the time. But 
we'll have a Member from the local area.
    Most of our hearings have, in fact, been bipartisan. So let 
me first do the two rule waivers. Written statements and 
questions to the hearing record and any answers to written 
questions provided by the witnesses also shall be included in 
the record without objection. So ordered.
    I also ask unanimous consent that other materials referred 
to by Members and witnesses may be included in the hearing and 
that all Members be permitted to revise and extend their 
remarks. Without objection, it is so ordered.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T4492.001
    
    [GRAPHIC] [TIFF OMITTED] T4492.002
    
    [GRAPHIC] [TIFF OMITTED] T4492.003
    
    [GRAPHIC] [TIFF OMITTED] T4492.004
    
    Mr. Souder. I'd now like to yield to my friend Mr. Hefley 
for any comments he'd like to make.
    Mr. Hefley. Yes, Chairman Souder. I, first of all, want to 
welcome you to Colorado Springs. And I think you've brought 
this hearing to a good place, because I don't know of any 
community in America that has more headquarters of national 
faith-based organizations than right here in Colorado Springs. 
Everybody from Focus to Young Life, Navigators, and you could 
go on and on down the list.
    I speak to the management group of these organizations from 
time to time. I've watched it over the years grow, and I think 
the last time I spoke to them, they had over 100 organizations 
represented. And so you come. We appreciate you coming here, 
and thank you for it.
    And this is an important topic. Somewhere down the line, 
we've gotten the idea that government has to do it all. And for 
most of our country's history, that has not been the case. For 
most of the history of the United States, who do you think did 
the social services to this country? It was the faith-based 
organizations.
    It was only during the Great Depression that we began to 
get the growth of the Federal Government being involved in all 
of these services to the point now that you bring up something 
like this, and there are those in Washington who think somehow 
or another if it's a faith-based organization, it will 
contaminate the system. But, oh, the government could sure do 
it right.
    We've seen over the years that the government has not done 
it right in many, many cases and the government cannot do it 
all. We need help. And we need help from people who are 
dedicated and committed and know how to do it. And the movement 
to enlist faith-based organizations has been a priority of 
President Bush, and I think it should be a priority of all of 
us.
    The question is how do you do it and get past the legal 
hurdles that you've talked about? So I look forward to the 
hearing today, and appreciate you bringing the hearing to 
Colorado Springs.
    Mr. Souder. Thank you very much.
    As long as I look east, it looks a lot like Indiana.
    For the record, too, if there are people who want to 
provide information to the committee or submit statements who 
aren't on the panels, if you'd provide them to us, we'll try to 
get them into the written record. But only witnesses who have 
been on the schedule and have been cleared with the committee 
are going to be testifying publicly today.
    Now, if the first panel will come forth to the panel. Will 
you raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. The clock will show green at 5 
minutes with 1 minute to go. It should show--do we have yellow 
on this one? If there's time after your 5 minute testimonies 
each, and we have a large second panel, as well, we'll ask 
questions.
    As you heard in the earlier part, your full testimony will 
be submitted in the record. You can submit other things after 
that. You can either read or summarize your statements, and 
I'll be a little generous with the 5 minutes. But with the 
pressures, we really want to get into some of the questions and 
some reaction of what is said. So we'll start with Mr. Wiflred 
Wooten from Focus on the Family.

  STATEMENT OF WILFRED WOOTEN, SENIOR DIRECTOR OF COUNSELING, 
                      FOCUS ON THE FAMILY

    Mr. Wooten. Thank you, sir. In the book, Prayer, Faith and 
Healing, subtitled, Cure Your Body, Heal Your Mind, and Restore 
Your Soul, there is a powerful thought presented by Bernie 
Siegel, M.D.
    Dr. Siegel stated, ``With prayer and faith, you can build a 
home for all mankind. Without them, you go build walls and 
fears that separate you from others and destroy your life.
    When you choose to pray and love, you are in tune with your 
existence. Prayer, faith and love are the most powerful weapons 
you have, and you need to make them a consistent part of your 
life, and use them wisely.''
    Perhaps we have God. We've gotten a long way from our 
founding fathers, what they believed, and what they had vision 
for. My name is Willy Wooten. I'm a licensed marriage, family, 
and child counselor, and a licensed clinical social worker. I 
served in the armed forces as social work officer for 24 years 
from 1969 to 1993. I've been on the staff of Focus on the 
Family for over 10 years. I serve as director of the counseling 
department. In the last 35 plus years of clinical work, I have 
observed the power of faith and prayer in the healing of 
physical and emotional disorders. The counseling department at 
Focus on the Family handles approximately 1,200 calls for 
assistance each week, or over 60,000 per year.
    These calls are the most critical needs that come into the 
ministry, from parenting issues, teen rebellion, divorce, 
separation, depression to suicide. We have 16 licensed 
Christian counselors, two chaplains, and a support staff of six 
who respond to many calls for help.
    We have developed a national referral network of over 2,200 
Christian counselors throughout the country to refer 
constituents who need additional support. We've also developed 
an informal network of churches to refer people who can't 
afford professional help or need some other kind of ministry 
that way.
    I have worked in a variety of secular and faith-based 
settings. Both research and my observation are that faith, 
prayer, and hope make a significant difference to the health, 
well-being, and healing of those who are struggling with the 
many challenges and hurdles that life can present.
    I believe one critical difference between a secular and 
faith-based program in assisting people in need was captured in 
the quote I shared earlier. We in the mental and physical 
health professions can give only limited and temporary relief 
from the diseases of life in our care and services without the 
application of prayer, faith, and hope, the result is a viable 
heart change and relationship with Jesus Christ.
    If you want to understand and find the solution for 
people's problems, one needs to go to the inventor, God, and 
live by his manual, the Bible. When our car pulls to the right 
or left instead of remaining straight when we brake, we take it 
in for alignment. Prayer and faith is a form of alignment with 
God.
    We appear to be out of alignment as families and as a 
Nation. There are court rulings that prohibit prayer in schools 
and other public places, thereby reducing the tools, 
procedures, and power our founding fathers lived by.
    A comment from a constituent recently stated, ``In recent 
months, I have very much appreciated the stand Dr. Dobson and 
Focus has taken on moral issues. I truly believe that it is why 
your ministry has done so well. You have never backed down, 
wavered, or filtered the truth. It's extremely hard to face our 
current culture, government, and justice system without at 
least a little apprehension about the outcome. I'm grateful 
that Focus on the Family has stood firm, without apology, and 
without watering down the stand you take on issues. Faith-based 
and proactive.'' One of the things that we do as a department 
and ministry is to reach out to the community here. We have 
contact with over 31 churches. We work with the Salvation Army. 
This is in reference to other faith-based organizations. 
American Red Cross, Northern Churches Care, Ecumenical Social 
Ministries, Women Partnering, Westside Cares, and others. This 
cooperative effort is through our benevolence outreach in 
helping constituents meet basic needs such as food, shelter, 
utilities, and medical bills, while also attending to the 
emotional and spiritual needs and trying to connect individuals 
who may be disconnected from the community at large. Thank you.
    Mr. Souder. Thank you very much for your testimony.
    Next is Mr. Frank Keller. The first panel is all from 
Focus, from some of the different ministries, which is one of 
the largest in the United States and around the world. And we 
wanted to see some of the range of what you do. Mr. Keller.

   STATEMENT OF FRANK KELLER, SENIOR DIRECTOR OF CONSTITUENT 
                 SERVICES, FOCUS ON THE FAMILY

    Mr. Keller. Good morning. My name is Frank Keller. I've 
been on staff at Focus on the Family for 12 years, having 
previously spent 20 years in public and private school 
administration.
    It's my privilege to be one of two senior directors for 
constituent services, which includes several departments 
consisting of 500 employees at Focus on the Family. I represent 
and oversee the daily activity of these departments, which 
provide, letter, e-mail, phone, product shipping, and guest 
relations services to approximately 10,000 constituents each 
day.
    The mission of Focus on the Family states that we exist to 
cooperate with the Holy Spirit in disseminating the gospel of 
Jesus Christ to as many people as possible, and to specifically 
accomplish that objective by helping to preserve traditional 
values and the institution of the family. This, based on 
scriptural truths, is done through practical outreach to homes 
based on our firm beliefs that both the Christian faith and the 
importance of the family are at the center.
    Each day brings several thousand letters, phone calls, and 
e-mails to the attention of Focus on the Family from 
individuals and families all across the United States. 
Sometimes internationally. These represent a wide variety of 
reasons for the contacts. Some are sharing information that 
Focus might benefit from, and many are asking for advice, 
resource suggestions, referrals to other support organizations, 
or outright help in the midst of extreme personal or family 
hardships.
    This direct communication is a vital link to the people we 
serve. In addition, an average of 600 guests physically walk 
into the Focus on the Family buildings each day looking for a 
tour, or are interested in shopping at the Focus bookstore and 
visitor's center.
    Those who contact us are treated with dignity and care. The 
many inquiries for information, advice, and encouragement are 
fielded by a highly trained staff in our constituent services 
departments. These include phone, mail, and e-mail 
representatives, along with shipping and distribution personnel 
whose job it is to assure the highest level of personal and 
supportive services.
    We see ourselves as entering into a relationship with those 
who contact us, and as a result, include offering to pray with 
them whenever appropriate.
    Many of our constituents actually request that Focus do 
this for them. A foundational component of faith-based 
organizations is that of connecting spiritually with God 
through prayer, for wisdom, guidance, encouragement, and 
comfort. It is impossible to be a faith-based organization 
without being prayer-dependent.
    On December 1, 2003, the highest single contact day at 
Focus on the Family in the last year, 24,000 phone, mail, e-
mail, and Internet Web orders were received and handled by the 
staff. A typical or average day number of constituent contacts 
received and handled in the past year would be about 7,000 each 
day.
    We feel we have been effective and successful in our 
attempts to assist the families as a result of seeing continued 
contacts and interaction for future services, as well as by the 
feedback we've received.
    Many people write or call back to let us know how their 
situation or need has improved, their faith strengthened, or 
how their life has been positively impacted by the assistance 
provided by Focus on the Family.
    I'd like to present three of those to you today, which 
wonderfully illustrate the opportunity our constituent services 
staff has to assist families through our faith-based 
organization.
    First, from a gentleman serving a prison sentence, we hear 
these words. ``Eight years ago, my marriage was in serious 
trouble. I was incarcerated, and didn't have any money, but I 
wrote you and asked for a copy of a book to help me, and you 
blessed me with a free copy. I'm happy to report that my wife 
and I just celebrated our 11th anniversary.''
    A woman tells us from Midlothian, VA, ``Thank you very much 
for responding to my e-mail. It gives me a little bit of hope 
just knowing that even though you do not know me, you took the 
time to try to help me. With all my problems lately, I've 
wondered if God even cares anymore. But I guess he cares enough 
to send good people like you, who are willing to help those of 
you us who are lost. God bless you for giving your time to help 
others.''
    And, finally, and I'll end with this. These words come from 
a man in Yukon, OK. He had contacted Focus on the Family just 
originally just to see if he could get some information to help 
him assist his disabled wife. He mentioned in passing that his 
financial situation was rather grim because of his wife's 
medical costs, and that they may have to file for bankruptcy.
    He says, ``In addition, and to our surprise, you sent me 
and my wife some financial assistance. I'm calling to express 
my gratitude for the way your ministry reached out to us. I did 
not plan to ask for assistance. But that gesture of care meant 
a great deal to us.'' Through tears he said, ``You will never 
know what that meant to us.''
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Keller follows:]

    [GRAPHIC] [TIFF OMITTED] T4492.005
    
    [GRAPHIC] [TIFF OMITTED] T4492.006
    
    Mr. Souder. Our third witness is Dr. Walter Larimore, vice 
president of medical authorization.

  STATEMENT OF WALTER L. LARIMORE, VICE PRESIDENT OF MEDICAL 
                 OUTREACH, FOCUS ON THE FAMILY

    Mr. Larimore. Mr. Chairman, Mr. Hefley, good morning. Prior 
to joining Focus on the Family to become the vice president of 
medical outreach, I practiced family medicine for over 20 
years. I was also involved in medical research and writing and 
appointments, including the University of Colorado.
    My testimony today to you is as a physician and researcher, 
and it's on the topic of the impact that positive spirituality 
can have on individuals and upon society.
    Positive spirituality, as I and my research colleagues have 
defined it in the medical literature, is distinctive from 
faith, morality, and religion, in that it involves an ever 
evolving authentic and personal relationship with God.
    It's not bound by race, ethnicity, economics or class. This 
personal relationship with God promotes the wellness and 
welfare of others over self. It includes the beliefs and values 
by which an individual lives, and it results in the visible 
fruit of love, joy, peace, patience, kindness, goodness, 
faithfulness, gentleness, and self-control.
    Over the last 40 years, researchers have increasingly shown 
that those with positive spirituality, those who internalize 
biblical teaching by frequently praying, applying what the 
Bible says to their lives, and believing that they will have a 
personal relationship with God, and practicing what they teach 
or believe have high levels of satisfaction in life, high 
levels of a sense of well-being, and overall happiness.
    The Handbook of Religion and Health published by Oxford 
Press said that the published data suggested, religious 
commitment plays a significant, beneficial role in three ways. 
One, in the prevention of mental and physical illness; two, 
improving how people cope with mental and physical illness; and 
three, facilitating recovery from illness.
    Representative Souder, if we had a pill that would do that, 
it would outsell Viagra. Not by much, but it would.
    Positive spirituality postpones the development of physical 
disability in later life. It helps chronically ill people who 
think of themselves and perceive themselves as less disabled 
than they really are. Positive spirituality results in 
optimism, hope, purpose, and meaning, even in the midst of 
negative life circumstances. Persons with positive spirituality 
can experience peace and healing, even when a cure is not 
forthcoming.
    Relationships between mental health and strong faith, 
devout prayer, and religious socialization have consequences 
that are far-reaching, and perhaps greatly underestimated.
    Positive spirituality is associated with improved 
attendance at scheduled medical appointments, greater 
cooperativeness with medical treatment plan, better compliance 
with medical recommendations, and improved medical outcomes. 
Positive spirituality is associated with decreased divorce, 
decreased fatherlessness, decreased teen pregnancy, decreased 
criminal recidivism.
    Let me close my testimony with just three suggestions on 
how the facilitation of faith-based organizations in healthcare 
may be beneficial to individuals and societies.
    No. 1 would be to encourage healthcare organizations and 
caregivers to incorporate positive spirituality into clinical 
care.
    Over the last several years, we've been involved in a 
continuing medical education course for healthcare providers. 
Over 10,000 healthcare providers have attended this course, 
either through live conference or video conference. Most of the 
learners were primary care physicians who were anxious to learn 
how to incorporate positive spirituality into their practices. 
The promotion of such faith-based activity by healthcare givers 
only improves doctor-patient relationships, and it introduces 
the very positive faith factor in physical well-being.
    Second, encourage education in the proper implementation of 
the HIPAA regulations, so as not to prevent patients from 
receiving the positive spiritual care they desire and need.
    The Health Insurance Portability and Accountability Act of 
1996 includes language originally intended to prevent 
electronic patient information from being sold and used 
inappropriately. But it's tied the hands of the healthcare 
industry in knots, and it's prompted most providers to err on 
the side of zero access to patient data.
    We're hearing from many pastoral professionals around the 
country that it means they can no longer stop by a hospital in 
search of members of their congregation without having 
permission or being on a specific list.
    It's been contended that these bureaucratic snafus could be 
readily fixed by the Department of Health and Human Services 
with a clarification of the privacy rules and the intent of 
HIPAA.
    Last, we would ask Congress to consider continuing and 
expanding clinical pastoral education. On October 1, 2003, the 
Medicare funding of CPE programs was diminished. And we feel 
that may have a negative implication on the positive spiritual 
care of people in hospitals.
    Let me conclude my comments to you by saying that the 
evidence today tells us that clinicians, communities, and 
Congress should continue to encourage positive spirituality. 
Health policymakers, health-care givers, and faith-based 
organizations should assess the spiritual needs of people and 
provide indicated and desired spiritual interventions.
    Our social programs should not, without compelling data to 
the contrary, deprive people of the spiritual support and 
comfort upon which their hope, health, and well-being may 
hinge. Thank you.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Larimore follows:]

    [GRAPHIC] [TIFF OMITTED] T4492.007
    
    [GRAPHIC] [TIFF OMITTED] T4492.008
    
    [GRAPHIC] [TIFF OMITTED] T4492.009
    
    [GRAPHIC] [TIFF OMITTED] T4492.010
    
    [GRAPHIC] [TIFF OMITTED] T4492.011
    
    [GRAPHIC] [TIFF OMITTED] T4492.012
    
    Mr. Souder. Next, Mr. Mike Haley, the public policy gender 
specialist from Focus on the Family.

STATEMENT OF MIKE HALEY, MANAGER OF GENDER ISSUES, FOCUS ON THE 
                             FAMILY

    Mr. Haley. Morning. As was stated, I'm the manager of the 
gender issues department and the Love Won Out department at 
Focus.
    Having lived as an active member of the gay activist 
community for 12 years, I offer unique insights into the causes 
and recovery of the homosexual condition. I serve as the 
chairman of the board of Exodus International, the largest 
ministry offering help to individuals and families throughout 
the world on the issue of homosexuality.
    My wife, Angie and I live here in Colorado Springs, and 
have two sons.
    Focus on the Family has taken on the difficult task of 
educating the populous on the true causes and recovery of 
homosexuality since 1998. Love Won Out has gone to the Nation's 
largest cities and Canada for 5 years speaking with a life-
changing message to tens of thousands of people.
    The Love Won Out conference seeks to balance truth and love 
while presenting the contentious issue of homosexuality from a 
Christian perspective. Attendees at our conference include 
parents, friends, and loved ones of homosexuals, pastors, 
mental health professionals, youth workers, educators, and even 
gay activists.
    There's not a family, church, or community not personally 
affected by the issue of homosexuality. Pop culture says 
homosexuality is biological, and that change and freedom from 
homosexuality are impossible.
    Some Christians, through fear and ignorance, communicate 
condemnation and hatred to homosexuals. Others don't know how 
to share their beliefs with those struggling with 
homosexuality. As a result, each year, thousands of confused 
and hurting people feel that there is no other option than to 
embrace this way of life, and thousands of families with loved 
ones in homosexuality feel there is nowhere to turn for help or 
answers.
    The misleading message offered by popular culture and the 
church necessitate a forum of real answers to homosexuality. 
Love Won Out seeks to shed light on truth through the Bible and 
social science research. Our ministry and the hope it offers 
would not be possible without the power of Christ. I would not 
have overcome my homosexuality or now have a message of 
redemption and new life without Christ. Love Won Out is rooted 
in God's word and forgiveness through Jesus Christ, and it 
would not exist any other way.
    Due to the dependence we have, it's imperative that we hire 
individuals with traditional biblical views, especially of 
God's design for sexuality. With so many ideas, thoughts, and 
beliefs on homosexuality in our culture today, we must ensure 
that the Love Won Out team and the entire ministry of Focus on 
the Family adhere to God's standards, and believe in the 
redemptive power of Jesus Christ. Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Haley follows:]

    [GRAPHIC] [TIFF OMITTED] T4492.013
    
    [GRAPHIC] [TIFF OMITTED] T4492.014
    
    Mr. Souder. We'll conclude this panel with Mr. Tom Minnery, 
vice president of public policy at Focus.

  STATEMENT OF TOM MINNERY, VICE PRESIDENT OF PUBLIC POLICY, 
                      FOCUS ON THE FAMILY

    Mr. Minnery. Thank you, Mr. Chairman. I'm happy to be the 
clean-up hitter here. I hope everybody at least got on base 
with you.
    Mr. Chairman, we fear the day when government may tell us 
that we can no longer hire on the basis of our religious faith. 
I cannot underscore enough the importance of religious 
conviction in all that we do at Focus on the Family.
    Our work force must adhere to a Christian world view and, 
indeed, be alive in Christian faith in order for our ministry 
and the services we provide to be effective. If the government 
were to prohibit us from hiring with religious criteria, we 
would be hard-pressed to call ourselves a Christian 
organization.
    We could not reasonably expect a religiously diverse work 
force, or indeed, a work force in which employees have no 
religion at all to carry out the unambiguous mission to 
disseminate the gospel of Jesus Christ. Legislative measures to 
ensure that our religious liberties are protected, particularly 
in hiring, would be most appreciated by Focus on the Family and 
the families we serve.
    We see State to State, and it's mostly State legislation, 
laws being passed that make it more difficult for openly faith-
based organizations, even churches in some States, to hire 
freely without being under the thumb of the State and sometimes 
local regulations, sometimes called the civil rights 
regulations.
    We fear that will become a pall on all that is done in the 
name of openly expressing religious faith. It's absurd to think 
that a Jewish relief organization would be required to hire a 
Catholic believer. It's absurd to think that a Catholic 
organization with a devotion to the blessed virgin would be 
required to hire Protestants. It doesn't make any sense. Even 
in the faith-based initiatives emanated from Washington, we are 
pleased in the protections that the President has adopted to 
institute. But when it comes time to think about State and 
local regulations, and State and local laws, there is no 
protection offered from the Federal level against the 
encroachment of these local laws for those organizations that 
take Federal money for faith-based initiatives.
    I believe that the Federal legislation has to do a lot more 
to protect organizations against the encroachment of these 
State and local laws if the organizations are going to take 
government money.
    Let me turn real quickly to another topic. One of the goals 
of Focus on the Family is to encourage people to become more 
effective citizens by letting their voices be heard more 
effectively. We prize the privilege of being citizens in this 
great country. And we encourage our constituents to raise their 
voices. Much of the activity is classified by the IRS as grass-
roots lobbying. Focus is permitted a yearly maximum of $250,000 
in expenditures for this activity. It's a minuscule amount for 
an organization with a budget of $130 million. The current law 
also allows us to spend an additional $750,000 on what the IRS 
calls direct lobbying. That is the effort to relay our concerns 
to legislators first hand instead of through constituents.
    We don't spend nearly $750,000 for this purpose. We'd like 
to spend more on the grass roots portion of it. Our limit is $1 
million. There is an unwieldy distinction between grass roots 
and direct lobbying.
    We would specifically ask that artificial distinction be 
eliminated. We're not asking to be able to spend more in 
lobbying, but simply that the unwieldy distinction between 
grass roots and direct lobbying be eliminated.
    We join with a number of nonprofit organizations across the 
political spectrum in asking for Congress to clean this up. The 
CARE Act now before Congress would do so. A section of Senate 
version 303 and Section 206 of the House version, each section 
is called Simplification of Lobbying Expenditure Limitation, 
would do exactly that.
    Nonprofit organizations on all sides of the spectrum would 
greatly appreciate Congress attending to this matter. Thank you 
very much.
    Mr. Souder. Thanks.
    Let me start with a couple of typical followup questions, 
and a few just for the general record. And maybe, Mr. Minnery, 
you can field the first basic question.
    Focus on the Family is not affiliated with any particular 
church? It's a separate denomination.
    Mr. Minnery. That's correct.
    Mr. Souder. When you have your different State initiatives, 
does Focus have different 501(c)3s? Do you transfer money to 
different 501(c)3s?
    Mr. Minnery. No, all of our expenditures are operated 
through our 501(c)3. Focus on the Family itself has an informal 
association with a number of groups on different projects and 
initiatives all the time.
    Mr. Souder. So when you do a money transfer to any of those 
groups, it's not a possibility that you're going to get tangled 
up with being, in effect, part ownership or underwriting?
    Mr. Minnery. That is correct.
    Mr. Souder. Is that true of the international operations, 
as well?
    Mr. Minnery. That is correct, primarily because our 
international affiliate organizations are their own separate 
corporate entities, with their own boards of directors.
    Mr. Souder. Do you provide them with free materials?
    Mr. Minnery. We do.
    Mr. Souder. Let me ask you one more technical followup 
question. On this lobbying section, as I understand the issue, 
it's a bias toward Washington lobbyists against non-Washington 
lobbyists; is that a fair characterization?
    Mr. Minnery. I don't understand it to be that.
    Mr. Souder. You said $750,000 for direct lobbying, and only 
$250 for indirect?
    Mr. Minnery. That's correct.
    Mr. Souder. So wouldn't that be a bias for if you have a 
lobbyist in Washington, and direct lobbying in Washington, then 
in effect some of the lobbyists would have been affected, and 
it would disadvantage organizations that wouldn't have it 
coming directly?
    Mr. Minnery. That may well be the reason that lopsided 
amount is in there.
    Mr. Souder. What local organizations are supporting this?
    Mr. Minnery. A wide variety. Too many for me to account 
here.
    Mr. Souder. Then, Dr. Larimore, I wanted to make a note to 
my staff, and if you can followup on the two particular issues 
you raised toward the tail end. Because I'm worried it's going 
to get lost in the shuffle here. Because I'm leaving for Libya, 
Iraq, and Afghanistan tomorrow. So I won't be back in my 
office.
    You mentioned two things. One, you felt that HSS could 
clarify, without legislature changes, the HIPAA problem. 
Perhaps you can either work with Mark Weiland or Roland, if you 
can followup with them.
    The second thing is to followup on Medicare. And if you can 
call our office sometime next week just to make sure we're 
getting some of this started, and get a little more detail on 
the chaplain question.
    Was that changed in the new Medicare bill?
    Mr. Larimore. No, that was a revised ruling regarding 
Medicare and clinical pastoral education. It was published 
October 1, 2003. And the specifics were that Medicare 
reimbursement to hospitals for CPE programs was significantly 
altered in that only the first year of training was funded.
    Mr. Souder. Was there a claim that legislatively there was 
anything to do with this, or how was it dealt with?
    Mr. Larimore. My understanding was it was just regulatory.
    Mr. Souder. Because we've seen this squeeze on chaplains in 
other areas, as well. And to the degree we can, try to get a 
response, because we do have oversight over HSS, and work with 
the authorizing committee, as well.
    Let me now go back to a broad question that I thought Mr. 
Minnery addressed well, but I would like you to illustrate some 
in the different sections. And let me first start with Mr. 
Wooten in the counseling area.
    Do you have a statement of faith for counselors? In other 
words, are there criterias when you have a counselor in your 
group, and could you kind of elaborate on how, if you didn't, 
how it would change your ministry?
    Mr. Wooten. There's a statement of faith that we have as a 
ministry that people sign and adhere to when they are hired. 
How it would change the mission or our ministry.
    Mr. Souder. Yes.
    Mr. Wooten. The majority of people who call in crisis are 
looking for that particular aspect of faith that we provide. 
Many because they've listened to the broadcast or they've been 
referred by somebody else. Probably 90 percent of the calls 
that we get are people that have some sort of faith or are 
struggling with it, and maybe another 10 percent that don't.
    Although we are reaching out more now with Internet, and 
are expecting larger numbers of people that maybe do not have 
faith that we want to be able to minister to. But that would 
very much impact our ability to freely do that.
    Mr. Souder. It probably wouldn't be possible for you to 
have two counselors sitting there where if they raise a 
religious subject you can switch over to that counselor, and if 
they didn't want to pray, for example, they could talk to the 
counselor here?
    Mr. Wooten. In this organization, to divide up the staff 
between the Christian and secular----
    Mr. Souder. You'd almost have to divide it by phone 
conversation. In the middle of the phone conversation.
    Mr. Wooten. Yeah.
    Mr. Souder. In other words, for those who argue that you 
don't have to necessarily pray, or you don't necessarily have 
to give a statement of faith, my impression is that would be 
very difficult in a mission like yours to separate the kind of 
work side of Christianity from the faith side of Christianity 
in the same conversation.
    You couldn't say, ``Uh-oh, this is yours.'' You'd have to 
tag-team the phone call.
    Mr. Wooten. Absolutely. We don't force anybody. We offer to 
pray with somebody, because we feel that's so important. And we 
ask them if they'd mind if we pray with them. Very few say no. 
If they do, then we don't, and we provide the other services of 
psychological and emotional support for referral. But very few 
don't want that to happen.
    In fact, when some people call in, if they're extremely 
distraught, during that time of saying, ``Can we pray for 
you?'' There is a quieting that often takes place that makes 
whatever was said before more effective, to be able to at least 
summarize and share with somebody.
    Mr. Souder. Is it fairly safe to say that doing counseling 
is a little bit different than, for example, giving soup at a 
soup kitchen?
    Mr. Wooten. Absolutely. Yeah.
    Mr. Souder. Mr. Hefley.
    Mr. Hefley. Yes. Thank you. Tom, I'm very happy that you 
brought up the hiring aspect, because this is one of the 
sticking points in this, as you well know.
    The Federal Government has a policy that they won't give 
grants to organizations who discriminate on the basis of race, 
religion, and so forth. And so this is something we have to 
deal with from a legal standpoint.
    But you're absolutely right, what you said about the 
ridiculousness of the Jewish organization and Christian 
organization, not being able to pick people who share your 
basic faith, I think is extremely important. And I would not 
support the faith-based initiative unless this item is taken 
care of. I don't think you can operate.
    Focus is a little different than some other organizations. 
And I don't know quite how you would fit into this, but I do 
need to ask the question. All of you pretty much, except Tom, 
dealt very strongly with these practical aspects of hiring and 
lobbying, talked about the importance of your faith and your 
Christian values and prayer and that kind of thing. And I agree 
with everything you said. I think you do a great job by using 
all of those techniques. But the government is not going to pay 
you to use those techniques, probably, in a faith-based 
initiative. And I use the example, and there may be someone 
here from the Salvation Army, I don't know. But the Salvation 
Army has been able over the years to bridge this gap by saying, 
``Oh, yes, we have a church. And the church, we push our faith 
in. But we also have community service where we don't push our 
faith.'' That doesn't mean they deny their faith. But they hand 
out the food. They hand out the coffee to soldiers. They 
provide the beds for the homeless or whatever they do in terms 
of social service without the pushing of the faith.
    And this is the reason they've been able to be part of the 
United Way all over the country, and on occasion get government 
grants for various things.
    Could you and most faith-based organizations divide this? 
Again, not denying your faith, but not pushing it either. Not 
trying to disseminate Christianity in your social service 
aspect. Could you do that, or do you think other faith-based 
organizations could do that if the government did give you 
grants to do a certain service? Tom.
    Mr. Minnery. Well, I think Focus on the Family could not. 
Because the provision of services is integral to faith. It's 
integral to the person and work of Jesus Christ.
    Just for the record, Focus on the Family has not, and the 
board has said we will not accept government money for the 
services we provide. Our funding comes from small donations of 
many thousands of people around the country who support the 
work.
    And our founder, Dr. Dobson, believes that if those 
supporters believe that the work we're doing is no longer 
worthwhile, then they ought to stop sending us money, and we 
should go do something else. We do not want to have a stream of 
funding that will subject us perhaps to later strings.
    Now, let me tell you, Congressman, where the problem comes 
in with an organization like the Salvation Army, since you 
brought that up. Several years ago, I believe it was, the city 
of San Francisco required that, in order to avoid anti-
discrimination laws in the State of California, the Salvation 
Army must begin paying health benefits to same-sex partners of 
employees of the church.
    Not necessarily church members themselves. But employees 
who may or may not be religious, who were employed by the 
church to hand out these services. It created great havoc 
within the Salvation Army, because, as you know, the Salvation 
Army is a church. Nonetheless, the policy was changed. The 
Salvation Army decided nationwide that it would comply with 
what the city of San Francisco had required and decided that 
its entire population of officers and employees would abide, 
and then would begin paying health benefits to same-sex 
partners.
    There was a great upheaval in that church to the point 
where the policy was changed. This is how onerous even a local 
jurisdiction can be to a national organization doing work that 
everyone claims is good.
    Do not allow the oppression of government to impact the 
relationship between a person who needs Godly help and his 
ability to get that. Please.
    Mr. Hefley. Well, you're absolutely right, Tom. And this is 
another extremely important aspect. And a sticky issue for this 
legislation is that when the government gives you money to do a 
certain job, they usually have a lot of strings attached. And 
it's a matter of whether you would want to accept those strings 
or not or whether we can restrain ourselves from the amount of 
strings that we attach to it.
    And I think as well as I know Focus on the Family, I agree 
with you that you probably do not want this kind of thing. But 
there are a lot of faith-based organizations out there that 
have an extremely good drug treatment program, for instance, or 
an extremely good unwed mother program or these kind of things 
that they're faith-based, and they're living out their faith, 
but they're not pushing their faith on the people that they 
deal with. I think if we get into a faith-based initiative, 
probably this is the approach that would have to be taken.
    We don't want too many strings put on there either, but I'm 
almost sure the government is not going to grant grants to 
people whose main purpose is to promote their particular view 
of religion.
    Mr. Minnery. Congressman, Your Honor, it is possible and 
reasonable for a soup kitchen to have the soup paid for and the 
kitchen paid for by government money. Inappropriate, however, 
to have the evening sermon or the devotion or the religious 
exercise to be paid for by government money.
    I don't know that any faith-based organization wants that 
to be the case. Separation must, can, and has, is, being made 
all around the country now.
    The concern is that much of what is being put in place and 
has been put in place is by Executive order. There are not 
onerous strings attached now in the Bush administration, but, 
of course, Executive orders can change with the Executive, and 
strings can be placed in the future for organizations that have 
built up a clientele, built up an employee base on the basis 
that their provision of soup and blankets and bedding using 
Federal money will not have any interference by the Federal 
Government with their provision later in the evening of a 
religious exercise.
    We're on thin ice doing this all under an Executive order.
    Mr. Hefley. You're very right. I think we get a little 
carried away with the separation thing sometimes when you 
realize that the chamber of the House of Representatives was 
used as a church on Sunday for 50 years after the capital was 
built. It was used as a church.
    Thomas Jefferson, who is considered to be one of the least 
religious of the founding fathers, attended that church 
regularly on Sunday mornings. And yet now we run in horror if 
there seems to be any connection at all between the two.
    And it's hard to imagine. I think there have been some very 
bad Supreme court decisions over the years regarding this. But 
your testimony, at least to me, is very helpful. Thank you.
    Mr. Souder. Thank you.
    I want to go back into some more kind of specific questions 
before we go on. Let me make one generic statement and state 
one of my concerns with what's happened with the faith-based 
initiative.
    I believed from the beginning, from the time I was with the 
Children and the Family Committee in the House as a Republican 
Senator and serving with Senator Coates, that the No. 1 part of 
the initiative is the tax credit or deduction part, because it 
reaches everybody, and we avoid this argument.
    And we got so much into the debate on the government 
funding side that we forgot the achievable side. The most 
significant part, even in a compromise, is getting a foot in 
the door for an additional tax credit.
    The second most important part, in my mind, was the 
capacity building. Particularly for Black and Hispanic, small 
neighborhood organizations who don't have CPAs and attorneys in 
their churches many times or on their board. And it helped them 
build capacity so they can go to private foundations.
    As we heard at our last hearing in Los Angeles, I think it 
was, that the private donations in the United States, 
philanthropy, is greater than in all the State, local, and 
Federal Governments combined in social services. And if we can 
do more matching of those private sector groups, that we should 
do that.
    Now, many of us believe that there is a role in Federal 
funds, as well. But one of the questions we often get is, 
``Well, why can't you just have everybody fit that 
definition?'' Faith-based organizations have been receiving 
Federal funds for at least 20 years. Probably longer than that. 
But part of the reason when we had this discussion about Focus 
being on the first panel is because you don't take Federal 
funds, and you don't want Federal funds.
    Why are you here? Because it's a chance to illustrate for 
the record. We had a great debate down in San Antonio between 
Freddie Garcia and Life Fellowship and their drug counseling, 
which is completely integrated with their faith, and the head 
of the Jewish federation or foundation there, out of Dallas or 
Houston, about whether or not they should be receiving any type 
of Federal help, even indirect. So we have that.
    But I wanted to establish, again, some of the particulars. 
That was part of my question on the counseling. You can't 
really separate counseling like you can soup.
    If I can ask you one other question, Mr. Wooten. I don't 
think you said this, but we have it in your written statement, 
in response to how you compare secular organizations and their 
delivery.
    You say, ``It's a difference between fast food and fine 
dining. Because you combine heart, mind, and body.'' Would you 
like to elaborate on that?
    Mr. Wooten. Yes, sir. When you mentioned soup, that is 
basically for the body. And a lot of people can distribute that 
in a lot of ways. But I talked about fine dining, it really has 
to do with the filling out the whole person, as far as of the 
their emotional well-being and the spiritual aspect.
    Mr. Souder. Mr. Keller, in your division, how many people 
do you have handling correspondence?
    Mr. Keller. It's a staff of approximately 500 staff that do 
the phones, mail, and e-mail.
    Mr. Souder. And you also handle the tourists coming in.
    Mr. Keller. That's right.
    Mr. Souder. You elaborated on people that come into Focus, 
that their faith can't be separated going through the visitor 
center. Your videos are integrated in. It would be very tough, 
but I guess the pizza's kind of secular. But other than that, 
it would be tough to secularize.
    In the correspondence, how would you even conceivably 
separate the faith part from the nonfaith part, and how would 
you have a staffer who didn't understand that do the 
correspondence?
    Mr. Keller. Well, we couldn't. It's very consistent with 
what Willie said. So often the contacts that come into Focus, 
people are including in their conversations, ``Where is God in 
what's happening to me?'' So that supports the importance of 
the staff understanding that concept. And that's the faith-
based, or the employee, to connect with that person. We just 
hear it so often that people will start a conversation that 
way, by saying, ``Where is God?'' And also, as I mentioned in 
my statement, more often than not, the people who contact Focus 
will ask for prayer. And in order to connect with that, there 
has to be that understanding and faith relationship connected 
to prayer.
    Now, I will also help you to understand that the staff at 
Focus on the Family that I work with never do any questioning 
of the people who contact us: ``Are you a believer in Jesus 
Christ?'' Unless that comes up later. In order to for us to 
give them service, that's never a condition.
    But the contact folks are the ones that will initiate that. 
Because Focus is known for that approach to service.
    Mr. Souder. Mr. Minnery said that you depend on thousands 
of small donations. What would be the reaction if, in the 
correspondence back, there was a line saying, ``God, whoever he 
or she may be,'' or something suggested that somehow you had 
kind of lost some certainty?
    Mr. Keller. I'm not sure I understand.
    Mr. Souder. In other words, if you had a diversity on your 
staff, and didn't have the consistency, which I understand 
partly is what Dr. Dobson has said in the past, and you put 
that through both faith counseling and other counseling.
    I'm not suggesting each person is totally free on their own 
merits to say whatever they want in the correspondence. But if 
somebody doesn't subscribe to that faith, and you started to 
see forms of contradiction to your faith, or less than both 
statements about your faith, do you think that would impact 
back in at some point into the support for the ministry.
    Mr. Keller. Are you referring to the staff?
    Mr. Souder. Yes. In other words, the standard question is, 
well, if you just have somebody down at the loading dock 
sorting through the different documents and people who are 
doing the mail, people who are doing the counseling, can't be 
they be, in effect, a non-Christian believer and still just 
follow your orders in getting the stuff out?
    And what I'm suggesting is wouldn't this, particularly in a 
purely voluntary ministry, potentially have a huge impact?
    Mr. Wooten. Can I respond to that?
    Mr. Souder. Sure.
    Mr. Wooten. Of all the formats of all of calls or letters 
that come in, about 10 percent or so come over to Frank's area, 
and the top 1 percent come over to counseling.
    I think the critical basis is the confidence in that faith 
that they are calling about. That's not what we focus on. We 
focus on the need that they're presenting. But if that is not 
appreciated or respected or shared in some way, absolutely that 
would get out.
    And not only would it affect the donation base, it would 
affect the confidence that people have in the ministry as a 
source of help. Because people talk to other people. If you go 
to a restaurant and go back to the food part--maybe it's 
getting close to lunch. I don't know.
    But if you go to a restaurant and you get food poisoning 
twice, and somebody asks you for a referral, are you going to 
refer them to that restaurant? Probably not. So there needs to 
be a consistency of what's presented. So does that answer your 
question.
    Mr. Souder. There are different types of ministries. But 
one of the things that repeatedly comes up, I believe, is a 
lack of understanding that, at least in some conservative 
social support ministries, that the faith is so integral and 
inseparable that the proposals aren't going to work.
    And in addition to government granting, I want to pursue 
this a little bit more across the board. Because I want to make 
sure it's more thoroughly aired at this hearing. For example, 
the media a lot of times asks, ``Is Dr. Dobson a tele-vangelist 
or does he do social service?'' He is not predominantly a tele-
vangelist. He is in the delivery of services. But it's the 
delivery of services that are intertwined with evangelistic 
outreach.
    So, Mr. Haley, for example, if your area, if you could not 
deal with moral questions, and could not deal with things that 
are rooted in faith, how would your ministry work?
    Mr. Haley. Well, it wouldn't. And that's one of the things 
that we have to look at. Even the secular social research 
scientist, Dr. Robert Spitzer, who was of the architects behind 
having homosexuality taken out of the Diagnostic Statistical 
Manual in 1993, who considers himself to be an atheist 
humanist, has seen that those individuals who have successfully 
attempted leave homosexuality have done better when their faith 
has been a part of that process.
    So we see that this is just a benefit for those individuals 
whose lives are hurting, for them to find the added forgiveness 
that's found in Jesus Christ.
    Mr. Souder. We had a Catholic activist at the Chicago 
hearing who works with male prostitutes on the streets in 
Chicago. And a Democrat colleague on the committee, Dan Davis, 
asked him, ``Well, can't you do your ministry''--because 
clearly, to help these people out, they, very tragically, 
didn't have much money, were struggling, were at high risk of 
disease on the streets.
    He said, ``Couldn't you separate that from changing their 
head and their heart?'' And he said, ``Well, no. They'll just 
go right back.''
    Can you illustrate a little bit that challenge? Not 
everybody will agree with your goals or with your ministry.
    But if you have those views on homosexuality and you wanted 
it to change, how would you do that?
    Mr. Haley. I think that's one of the things that you have 
to look at. I'm familiar with the ministry that I think you're 
talking about. John Greene with MAS Ministries in Chicago. Very 
dear friends of that ministry, as well.
    But we can't separate, you can get people to change 
actions, but one of the things that we want to do is we want to 
change the heart. We want to go to the very core of the 
individual.
    And what we find is that when you base something on 
feelings, the recidivism is very much something that we have to 
deal with. So if you're, again, using Willie's analogy, dealing 
with the body, mind, and soul, as well as their spirituality, 
we just see a much greater success rate occur in the lives of 
these individuals.
    And we also are able to help the families that need to know 
how to balance their response to individuals in the 
homosexuality community. Oftentimes, the church has not known 
how to respond, and has further pushed the gay and lesbian 
population away from the very belief that we support, that 
those people need a savior.
    Mr. Minnery. Mr. Chairman, if I might take a crack at that, 
as well. I believe that the essence of Christian witness and 
Christian conversion in the process of struggling out of 
homosexuality is essential, because it inputs into someone a 
huge transcendent idea that, ``My sexuality is being acted out 
not the way God wanted me to have it. Not the way I read about 
it in the Scripture.''
    And giving one's self over to the belief in God, and the 
belief that what God wants for him or her is what he or she 
should be doing, and is not what he or she is doing now in the 
practice of homosexuality. It's the transcendent belief in 
Godly wisdom and Godly power, and a belief that the practice of 
homosexuality is sin, and it is forgiven by conversion to Jesus 
Christ.
    This is the essence of the power that allows somebody to 
begin the struggle. And it is indeed a difficult struggle, even 
with the power of God.
    Mr. Souder. And when we deal with, for example, direct 
government grants, there's a difference between ministries that 
will provide shelter and assistance to someone who has AIDS or 
is homeless, and someone who is directly trying to transform a 
life.
    And what we're trying to work toward is where are the 
different lines as to how we approach the tax part? Can you 
provide bussing help? Can you provide computers, but not the 
software? Can you provide direct help for software.
    And there are lots of court decisions about this. But one 
of the things that we're laying out here today is that there 
are ministries that, quite frankly, shouldn't be applying to 
government, because the government is going to undermine their 
intentions and, quite frankly, in a very diverse society, 
probably wouldn't get any support for direct funding. But we 
have all kind of nuances in between here.
    I wanted to establish that Dr. Larimore had some very 
interesting stats on why faith actually in spirituality can 
make a big difference. And I wanted to ask a couple of 
technical questions.
    Does your data break this out, I'm trying to think. Way 
back in the 1980's, Dave Larson----
    Mr. Larimore. Dave Larson.
    Mr. Souder [continuing]. Was one of the first researchers 
with this when we first raised this. And I assume there has 
been continuing research. I remember when we found him and got 
him over to HSS and Mental Health Services and started doing 
more grants and research with it.
    Does the research show differences by types of religion. 
Does it show differences by commitments and faith?
    Mr. Larimore. Dave is a good friend. We trained together at 
Duke. And I'm sorry we've lost him to this effort. There's very 
little research on the differences between denomination or 
different religions.
    We're just seeing the beginning of that research. The vast 
majority, over 1,600 studies, that have looked at the 
relationship between physical and mental health and spiritual 
health have been among adherence to the Judeo-Christian 
traditions, particularly Christian traditions. We do find that 
denomination is not a particularly strong prediction of health. 
The researchers talk about the difference between intrinsic 
spirituality and religion and extrinsic spirituality and 
religion.
    And I reference that in my written comments, along with 
citations that would support what I'm going to say. But the 
evidence is overwhelming that people who claim to have a 
personal relationship with God are changed from the inside out, 
as opposed to just attending services or having a utilitarian 
approach to religion or spirituality. It is the intrinsics who 
are the ones who benefit physically, emotionally, mentally from 
their spirituality. So apart from organized religion, this 
individual transformation appears to transform not only 
individuals, but families and communities.
    When we look at community-based organizations and where 
their volunteers come from, far and away the volunteer services 
that are provided in this country are provided by those of 
intrinsic spirituality. It not only changes them internally, 
but it changes their actions.
    So that the volunteers of even secular organizations are 
three times more likely to be people who have been transformed 
individually and spiritually.
    At Focus on the Family, we believe the greatest 
transformation is a personal relationship with God that comes 
through Jesus Christ.
    Mr. Souder. What are the statistical measures of how you 
get the intrinsic? Is it asking someone a sufficient measure, 
or would you do it by frequency of church attendance? Bible 
student.
    Mr. Larimore. Good question. There's a variety of research 
on that. And it centers around what the researchers call 
spirituality assessment or spirituality history.
    The research is so clear that with as few as three or four 
very simple questions, the position of a client or a patient 
can be established, that the Joint Commission for Accreditation 
of Healthcare Organizations began in 1996 with a quality 
assessment or requirement of certification that all in-patient 
facilities, all in-patient mental health facilities, all 
outpatient mental health facilities take a spirituality 
assessment to every client that presents there for services.
    And the reason is not in any way to try to push some sort 
of faith upon them, but to find out where they are spiritually, 
and what services can be provided to them that would help them 
in their healing, help them in their compliance. To reduce the 
return rate, if you would.
    We see this in drug rehab programs. Narcotics Anonymous, 
for example. Alcoholics Anonymous. The 12-step programs that 
concentrate on intrinsic spirituality. Transformation 
spirituality to see the highest effectiveness rates.
    And in healthcare institutions, the needs of patients are 
massive in this area. Just as one example, there was a study 
that's not at all unusual. This was done at Rush Presbyterian 
St. Luke's medical center in Chicago, where they found that 70 
percent of the med-surg patients, and 88 percent of psychiatric 
in-patients had at least three religious needs during their 
hospitalization.
    And the three most common were, No. 1, a desire to speak 
with a chaplain or a pastoral professional during their stay. 
And, No. 2, an opportunity to attend a hospital worship 
service. And, No. 3, spiritual resource reading materials, or 
someone to pray with.
    And that bolsters what Mr. Wooten was saying to you 
earlier. That those who understand this research and have been 
transformed by a personal relationship with God cannot separate 
this from quality professional activity.
    And to the extent that the government would in any way 
impede the free exercise of that, is not only personally 
foreign to me, but it appears to me that the literature is 
clear that our society would be less healthy.
    Not to establish our pushing on someone what they don't 
want, but to simply ask, ``Is this important to you?'' And if 
so, via referral or provision of services, we'll help you find 
it.
    Mr. Souder. Obviously we're going to pursue this more long-
term. Let me ask one more question, and if you don't know the 
answer, if we can kind of look at this. And I understand this 
is a difficult research question. But is there data that would 
show that somebody who, in other words, the obvious critique 
historically of religious behavior is that it's a form of 
screening or skimming.
    One of the same arguments we hear in private schools, that 
those people are that way for other reasons. You genetically 
changed the pool. You have mother and father there. Stability 
of family. Higher income.
    One of two ways, either freezing other variables and/or 
doing it this way, taking somebody who is at 40, and has one 
type of social problem or another, and then changes their 
religious beliefs. Understanding there's a potentially higher 
risk, because of adding a not-fair sample either, do you still 
see the same patterns? And are there any research studies that 
would suggest that?
    Mr. Larimore. There is a huge data base, meaning that it 
compares populations and looks at a large variety of 
demographic, behavioral, and other variables, and then controls 
that. That's called multi-variable research.
    And in those population studies, the 1,600 and some odd 
studies that I referred to earlier in my testimony, the vast 
majority of studies showed that in intrinsic spirituality, 
positive spirituality, transformation religion positively 
impacts physical, emotional, mental, and relational health and 
relationships. That is only in association. It is not in any 
way saying that there is a cause and an effect. So researchers, 
over the last 5 to 6 years, have gone looking in a randomized 
fashion. Whether it is in relationship with heart failure or 
breast cancer or drug treatment, looking in a randomized 
fashion as to whether this makes a difference. And we have very 
little of that research that's been published today.
    Mr. Souder. I want to ask one other question of Mr. Wooten, 
and then we'll go to Mr. Minnery for the end of my public 
forum.
    Mr. Wooten, in your counseling, beyond the materials that 
you can give and the treatment you can, do you refer people to 
people at their local level? Do you have systems in place so 
that you can do that?
    Mr. Wooten. Yeah, absolutely. That's one of the cores that 
we do, besides providing initial kind of supports and help 
counseling when they call, we provide resources to them, 
Whether it's books or tapes.
    And I think as I mentioned in my present role, we have over 
2,200 licensed Christian counselors throughout the country, and 
we continue to add to that we can refer in that local 
community.
    Mr. Souder. Do you do similar things if somebody has 
physical health problems or financial needs or housing needs? 
Do you have any other kind of referral system or a clearing 
place you might send them to be able to assist them, of how 
might you approach that?
    Mr. Wooten. We are not as broad that way, but we refer them 
to a local church or another community-based program that can 
be helpful to them.
    Mr. Souder. Because one of the things I just wanted to 
establish for the record, when we have national/international 
headquarters testify, and we'll have a few others today, and 
we've had them in a few other places. If it's not a local 
agency, they're often interconnecting, and that gets people to 
connect up with other faith-based ministries.
    So having you start another process leads to strengthening 
faith-based ministries around the country. And that kind of 
sets up one of the things that came up in our last hearing, Dr. 
Keith Phillips of World Impact testified that he had 17 
suggestions other than direct government funding that faith-
based organizations, things we might be able to do out of the 
Federal Government.
    Among those, and I'd be interested, not only today, but if 
you get some feedback, and we'll get a full list. Maybe we can 
get some written response from some of your network 
organizations.
    One is, for example, we have excess military property or 
other government property. Could we put at the front of the 
list that nonprofit organizations should get first bid, if 
they're providing services to the poor?
    Because we have a Federal disposal process for all sorts of 
equipment in the United States. And if somebody is working with 
the poor, not just faith-based, although there would be a 
faith-based eligibility, but why wouldn't we put them toward 
the front?
    Another thing was similar with Federal property. Some may 
be from base closings and military-type establishments, others 
are other government buildings that move to another location. I 
wrote the paper on lighthouse disposal properties, and we put 
nonprofit groups at the front of the line.
    Why couldn't something like this happen in disposal of 
Federal property, if you're providing services to the poor? 
Another that was really interesting is where we have military 
bases or large government facilities and have buses. Could 
buses or other pieces of equipment like that, but buses is what 
came up here, could they provide some of those type of buses to 
nonprofitable, chairtable groups, including faith-based, that 
can be used to take kids to camp from an inner city area that 
haven't had that access?
    In other words, there are many ways to do faith-based here. 
And that's why it isn't necessarily direct government funding, 
which clearly your organization doesn't seek, want, nor should 
you touch. At the same time, there are a number of indirect 
things that your affiliates or even your organization might be 
able to utilize. And another one that came up was medical 
liability reform for low-income health clinics. In Watts, 
almost all of them are closing, because they can't get anybody 
to take the liability, and nonprofit groups won't come in and 
do that.
    Can you comment on some of these other types of things, Mr. 
Minnery, and then be willing, if we provide you with a list, to 
kind of test some of this? Because this shows you how 
widespread this can be, in addition to kind of where the public 
debate currently is.
    Mr. Minnery. Well, certainly, Mr. Chairman. I'm trying to 
figure out how we would use a lighthouse if the Federal 
Government would give us one. I don't know that I've got an 
answer to that.
    What immediately comes to mind is what President Bush saw 
in Texas when he was Governor, and that is the changed lives of 
the prisoners when prisoners voluntarily are allowed to join 
wings of prisons in which religious exercises, Bible teaching, 
becomes the order of the day.
    I believe that the first evidence of vastly reduced 
recidivism are now being authenticated to show that something 
as little as allowing a prisoner to do one thing during the day 
rather than making him do something else can greatly change his 
future once he or she leaves prison.
    So it seems to me that striking down the barriers in a 
Federal prison system to this kind of Bible study, religious 
exercise would greatly enhance the ability of prisoners to live 
productive lives outside of prisons. And I do not think that 
this would require any vast expenditure of Federal money, nor 
would it require significant entanglement of the government 
with the private sectors.
    I do believe that most of these programs are being run by 
volunteers in prison, and certainly not prison chaplains 
themselves. So the prison ministry is one.
    Beyond that, I'm sure that we can come up with some other 
ideas for the subcommittee.
    Mr. Souder. OK. Thank you very much.
    Mr. Hefley, do you have anything further?
    Mr. Hefley. I don't think so. I think this has been very 
helpful. You know, Focus on the Family does a marvelous job. It 
reaches untold numbers of lives out there across the country, 
and you should keep doing what you're doing without government 
entanglement. And I think what you've illustrated for us here 
today is that there are some faith-based organizations that 
simply would not participate in a government program.
    I take it you're not opposed to that for those who can 
participate in it? And let me just illustrate. I refer to Mr. 
Dan Ford, who formed the Ralston Purina company. He believed 
there were four sides to the person. There was the 
spirituality, there was the physical, there was a social, and 
there was a mental side.
    And the reason he did the checkerboard square logo is he 
thought people should have a balanced life. And if you over-
emphasize one or the other, or you skew the square, it's not 
very pretty.
    And what you do, it seems to me, is you deal more with the 
spirituality, social, and mental. And faith-based organizations 
that do that probably can't separate the depth of their 
religious belief from their service.
    Those who deal primarily with the physical, that was 
illustrated by the soup and all of that kind of thing, probably 
can.
    Young Life would not take their deep spiritual roots out of 
their normal ministry with high school kids. On the other hand, 
maybe they could with their ministry at the Dale House project, 
where they're providing services for troubled kids, and maybe 
they couldn't. I'm not quite sure on that.
    So what you're showing me is that there are some 
organizations that are simply not going to be able to do this.
    Mr. Minnery. Congressman, you are correct when you say we 
do not oppose this for many other organizations. In fact, we 
are so pleased that the President has brought the power of 
religious faith back into the public square and made it an 
essential part of our national debate.
    And just as soon as he formed his faith-based initiatives 
office in the White House, we invited one of his deputies, Don 
Eberly, to be a guest on Dr. Dobson's program, and explain what 
it is the President was trying to do.
    Mr. Souder. Thank you very much. Let me thank you again for 
your testimony. If there's anything that any of you want to 
add, if you'll submit that to us. I didn't go through some of 
our standard questions to try to make each of our hearings have 
some commonalities. So we may send you some written questions 
too.
    Thank you for your time. Thank you for your years of work. 
The second panel will be very diverse. We've had the Sugarland 
people from the Houston area in the fellowship in the prisons. 
We had people in California from the Saddleback church, and 
what they're doing now in the California prisons.
    So we're looking at a very diverse range of things. And 
it's very important to have your organization here today that 
helps illustrate the range of faith-based services, and how 
different things range, from tax coverage, hiring practices, 
and kind of the diversity that we face. For example, it was 
very important to learn on the physical and mental health 
centers, the plain truth is that hard-core Muslim organizations 
are very effective at drug abuse. It isn't unique just to 
Christianity when we're dealing with these kind of issues.
    So I thank you very much for your testimony. We're going to 
take a brief recess. If the second panel could start to come 
forward, let me read their names in the order that we'll have 
you testify. We have Larry Jones, president of Feed the 
Children from Oklahoma City will be the first witness. Second, 
Dean Tollefson from Community Minister Outreaches. Third will 
be Sharon Littrell, Interfaith Hospitality Network. Fourth will 
be Reverend Dean Cowles. Fifth will be Jean Robinson from 
Denver Urban Ministries. Sixth will be Mr. Ed Anderson from 
Compassion International. Seventh, Jackie Jaramillo, director 
of Faith Partners, Colorado Springs. And eighth will be Mr. Bob 
Cote, executive director of Step 13 from Denver.
    We will stand in recess.
    [Recess.]
    Mr. Souder. The subcommittee will come back to order. If 
each of you will stand. If you'll raise your right hands. This 
committee historically asks each witness to take the oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record reflect that each witness 
responded in the affirmative. We certainly hope we don't have 
perjury questions at faith-based hearings. It's more a 
historical precedent of the committee. I thank you all for 
coming. Most of you were here during the first panel and got a 
general drift of how we're doing these and what we're trying to 
do. You have 5 minutes. You can see that we then try to save 
questions for a period of time after that.
    Your full statement will be inserted into the record. If 
you want to supply additional materials, supplementary, 
anything that you refer to, we'll ask you for copies to put 
into the record too. We're going to start with Steve Whetstone 
from Feed the Children in Oklahoma City.

        STATEMENT OF STEVEN WHETSTONE, FEED THE CHILDREN

    Mr. Whetstone. Thank you, Mr. Chairman. And thank you for 
the privilege of being here.
    Mr. Souder. We may have to do a mic sharing here.
    Mr. Whetstone. Thank you, Chairman Souder, and thank you 
for the honor and the privilege of appearing before you here 
this morning. In 1979, Larry and Frances Jones founded Feed the 
Children while walking through the streets of Haiti. Larry 
Jones had been visiting some of the local churches and came 
face to face with the devastating effects of poverty in Haiti.
    Also, he had just read an article about a surplus of 35 
million metric tons of grain stored in warehouses throughout 
the United States at taxpayers' expense, and was struck by the 
stark contrast between these two mental pictures. Why couldn't 
things just get from point A to point B? And we were given the 
idea to do just that.
    25 years later, Feed the Children has grown to the 19th 
largest charity in the United States, 10th, if you count just 
private funding. Through our faith, through our commitment, and 
through their vision, that remains the heart of our ministry.
    We work through a network of more than 50,000 local food 
banks, churches, feeding centers, homeless shelters, rescue 
missions, and other organizations of faith-based and community 
groups in order to move that food from point A to point B. To 
take it from areas of surplus to where it's needed most.
    While we're a Christian international relief organization, 
our faith plays a great role in the work that we do. Prayer is 
a standard part of everyday operations, as well as our long-
term and strategic planning.
    We were founded by faith and we operate under Biblical 
principles of caring for those in need with compassion and 
love. Our staff are professionals who recognize the fact that 
the things that we accomplish are only because of the grace and 
provision of God. And we recognize that every day, and give him 
all the glory. Most people know Feed the Children for our work 
in disaster relief. Often we're the first trucks there on the 
scene to provide needed relief to families who have been 
victimized by flood, fire, tornados, hurricanes, and so forth. 
But most of what we do is to offset the greatest tragedy of 
all. The greatest everyday tragedy of child hunger in America.
    In fact, more than 12 million children struggle with hunger 
every month right here in the United States. That's one in 
five. Government programs like TEFAP, WIC, food stamps and 
others go a long way to provide assistance to these families 
who are experiencing temporary problems. But unfortunately 
these programs don't go far enough.
    Often many of the people who receive these benefits find 
they run out of assistance before they run out of month. Single 
moms often have to pay at least half of their take-home pay 
just for childcare and other necessities so that they can hold 
down those jobs.
    And now with State facing major fiscal crises, many States 
have had to reduce access to these programs to those who need 
them most. Now, in our network of 60,000 church and other 
faith-based community organizations we were able to provide 
over 70 million pounds of food and other necessities just last 
year.
    Additionally, we sent 14 million pounds to the same type of 
organizations overseas in 62 different countries. These 
organizations live in the heart of poverty. They know the 
problems. They know the communities. They know the families. 
They know the programs that are available, and how to access 
them, and they stand shoulder to shoulder with us in our 
efforts to accommodate those families.
    We measure our accomplishments with names and faces, not 
just numbers. Last September, the Secretary of Agriculture, Ann 
Veneman, and the director of the White House Office of Faith-
Based and Community Initiatives director Jim Towey, and Feed 
the Children president Larry Jones announced the National 
Nonprofit Humanitarian Initiative.
    It's a nationwide program to provide nonfat dry milk to 
organizations like Feed the Children outside the normal scope 
of the TEFAP program. Last month, we distributed more than 14 
million pounds to needy families across this country through 
organizations like the Salvation Army and others who you'll 
hear from today.
    We have to be efficient with the resources that are 
provided to us. Our donors expect it. Our faith requires it. 
Our donors won't want to give to--they don't want to pay our 
utility bills. They don't want to pay our rent. They want their 
donations to go to move food to hungry children. And that's 
what we do best.
    Last year, more than 88 cents of every dollar went to 
direct family expenditures for programs.
    As much as we do, there's always more that needs to be 
done. We raise funds through a weekly television program and 
through direct mail solicitations. But these funds are used to 
move those trucks; 54 tractor trailers that carry food and 
other supplies from point A to point B.
    Those trucks cost money. Fuel, insurance, licensing, and 
many other factors take a big bite out of what we could 
otherwise provide the families. And that's where we see other 
programs coming in.
    The Denton Amendment is an overseas program that comes in 
when USAID declares a disaster in foreign countries. Military 
and other government modes of transportation can be utilized to 
move humanitarian aid by organizations like Feed the Children.
    We would call upon Congress to replicate this program for 
domestic use in the United States, and not just in times of 
disaster, but as I said earlier in times of disaster for 
everyday hunger relief by American children. We'd like to see 
the National Nonprofit Humanitarian Initiative expanded in 
order to provide more food and different commodities and other 
government services. The bottom line is faith-based 
organizations have demonstrated time and again to be more 
efficient than large government programs. We can deliver. And 
with your help, we will.
    Again, thank you for your leadership in this area. And we 
stand shoulder to shoulder with you and offer our assistance in 
any way to make these initiatives and others a reality.
    Mr. Souder. Thank you very much for your testimony.
    [The prepared statement of Mr. Whetstone follows:]

    [GRAPHIC] [TIFF OMITTED] T4492.015
    
    [GRAPHIC] [TIFF OMITTED] T4492.016
    
    [GRAPHIC] [TIFF OMITTED] T4492.017
    
    [GRAPHIC] [TIFF OMITTED] T4492.018
    
    [GRAPHIC] [TIFF OMITTED] T4492.019
    
    [GRAPHIC] [TIFF OMITTED] T4492.020
    
    [GRAPHIC] [TIFF OMITTED] T4492.021
    
    [GRAPHIC] [TIFF OMITTED] T4492.022
    
    [GRAPHIC] [TIFF OMITTED] T4492.023
    
    [GRAPHIC] [TIFF OMITTED] T4492.024
    
    Mr. Souder. And we have two reasons why we have eight of 
you in one panel, and I'll ask questions for each of you at the 
end of your testimonies. We have to be out of here at 2.
    Also, we are still putting witness panels together, which 
is why some of you have prepared and some you have less 
prepared cards, as we were accommodating more requests and 
trying to make sure we had a good mix of the panels.
    It will make it a little chaotic in the questioning, but it 
will also enable us to have a good discussion. I also wanted to 
say directly to Steve that, in addition, Fort Wayne, IN, is my 
main base, but Elkhart, where you've recently taken the Bay 
area facility for distribution of food, is an area I'm familiar 
with. Welcome to Indiana.
    And I know you've had lots of support up in that area. And 
we're working hard in the farm belt with lots of ways to help a 
very committed region in that area with Mennonite Relief and 
the HEPA project and many other organizations. And I think 
you'll find it a great place to work with. Now we'll go to Mr. 
Dean Tollefson from Community Ministers Unlimited here in 
Colorado Springs. Is that correct?

 STATEMENT OF DEAN E. TOLLEFSON, COMMUNITY MINISTERS UNLIMITED

    Mr. Tollefson. Thank you very much, Mr. Souder, and your 
staff for helping to deal me in today. I found out about this 
yesterday morning, and I'm pleased to be here.
    I am a former college administrator and teacher. My name is 
Dean, but I was one once.
    Mr. Souder. So it's not like the senator in Lake Wobegone 
where his parents named him Senator?
    Mr. Tollefson. No, it's a nomination. I'm a former officer 
in the Marine Corps, and a legal officer. I wanted to lay out 
two things today after talking about where I'm coming from.
    The first one is the context for the work here in this 
community. And the second one, specifically, are the problems 
associated with what we are doing here or not doing, as the 
case may be.
    You touched on the legal matters and the legal issues, but 
you also said you're functioning under an Executive order. My 
guess is, as a former exec, you're very much interested in the 
good management of that order. And I want to address that.
    First of all, I'm head of the administerial service here. 
We serve those that are excluded, ignored, or who don't conform 
to some interest or litany, or really just mantra. What I'm 
concerned about in my work is that an increasing number of 
people who are coming to me say because of that narrow view, 
they are losing their sense of the sacred.
    It's really dangerous for a nation to lose its sense of the 
sacred, because somebody decides what is religious on very 
narrow grounds.
    Second, I want to say that I am a long-time member of the 
Pikes Peak Inter-Faith Council. This includes a broad range of 
religious faiths and belief among us. It includes Native 
Americans, the oldest faith in the area. It includes Orthodox, 
Catholics, main-line Protestants, Muslims, Unitarian 
universals, Bahais, etc. All of us.
    We are excluded from celebrating the National Day of Prayer 
in this community by people that you have just heard from. 
Remember that the lady who heads that is either an honorary 
chairman or a chairman, and just really doesn't want to have 
anything to do with all other main-liners and all of the other 
religious traditions, some of which have a very long history in 
both western and the eastern world.
    I forgot to mention Buddhists and Hindus, and we should 
have done that. We are all included in that, and we are 
excluded from the National Day of Prayer in this community 
because of our breadth and depth. You want to think about that 
in terms of what that means in this community, and what is the 
direction that we take because of that very narrow and 
exclusivist view.
    I regret very much Tom Minnery saying that you have to hire 
according to your own will. If he were to participate with us, 
he would see that faith is not narrowly understood.
    And that when hiring, one ought to think about competence, 
not merely conformity.
    I want to read, first of all, in the context of what we're 
doing here and the Faith Partners in our town that is working 
on the issue that you're here to explore. First of all, a 
quote, a commentary from Mr. Barry Torvag. This is a transcript 
of what I first saw on PBS, and then read about in a transcript 
from National Public Radio.
    He said, ``The first step is to love them.'' I'm not sure 
this is a quote. Oh, yes, it is a quote. ``The first step is to 
love them''--he's member of the board of directors of Faith 
Partners--``and to care for them, and not to attempt to share 
with them necessarily any of the concepts surrounding the 
Christian faith, but just be there. Love them and accept them, 
and then take a few months of the program''--``and that takes a 
few months in the program. And that's Phase 1. And then the 
next phase is inviting them to explore the concept of faith in 
God through Jesus Christ, which is the Christian faith.''
    I think it's somewhere between 85 percent range that's come 
to some relationship with God through Christ as a consequence 
of our participation with them. Do you have the transcript? 
Yes.
    Ms. Jaramillo says subsequently, she calls it a covert 
religious mission. ``I think it's covert, because as I use the 
word 'covert,' 95 percent of the Christian world is 
uncomfortable sharing their faith with people.'' That 
statement, Ms. Jaramillo, is an unmitigated outrage. It's 
arrogant. It's mean-spirited. It is totally inappropriate in a 
religious community. ``And why do you have to tip-toe around 
that,'' Mr. Schwartlein says, the interviewer. ``Why do you 
need to be, you know, covert in your work?'' And then, 
``Because we're using government money.''
    Well, you can see the problem. And I don't need to go on 
with that. What I want to do now is go on. That's the context 
in which we work. Am I on red already? I wanted to talk about 
the contract that the Faith Partners is totally in violation 
of.
    Mr. Souder. Well, why don't you briefly run through them.
    Mr. Tollefson. The first one is they should contact 
organizations from various religious backgrounds. We have 150 
people representing about 24 religious organizations in this 
community, and we have never been contacted by Faith Partners 
ever. None of us. Ever. On any grounds. Not on our program or 
anything. Second, the contract shall be monitored to ensure 
that no participating organization discriminates against any 
client in offering and providing services to them. They don't 
even have an inclination to do that. Their intention is not 
that.
    ``The contractor shall provide evaluation of the content 
and application to be sure that they meet client needs, and do 
not violate the client's right to choice of nonintrusive 
secular services.'' It's another violation. They don't do that.
    Another one is No. 18. ``The contract shall provide 
outreach services and presentations to the entire faith 
community.'' It hasn't happened. It's only to their own. This 
is real trouble to us. I'll stop there and honor you.
    What we're dealing with is narrow, self-righteous, and even 
self-service issues. And it may be, sir, that the worst place 
for you to try to make faith-based initiatives work is in 
Colorado Springs, because of the very narrow interpretations of 
what faith, even Christianity, means.
    Remember 23 centuries ago, we heard Aristotle say that, 
``The first way to screw up your mind and to enforce all the 
possibility of knowledge is to exercise the fallacies of mere 
assertion.'' Just because somebody says something is true 
doesn't make it true.
    So you want to think about where you're applying what 
you're attempting to get. When government controls faith, faith 
doesn't work because free enterprise in the marketplace of 
belief builds faith and faith communities. And what is being 
compromised here is that free enterprise expression of faith.
    When faith controls government, you get recession that is 
utterly diabolical, and we see that everywhere in the world. 
And we have seen it in our own country. Do you remember what 
the faith community said of Blacks? ``The only way to save them 
is to enslave them.''
    Mr. Souder. With all due respect, that was not the entire 
faith community. Abolitionists were also led by the church.
    Mr. Tollefson. That was the heavy view in the south, and 
it's only as they got away from that have they begun to grow 
and be progressive. So we want to be very careful about 
promoting one point of view.
    Mr. Souder. Thank you for your testimony.
    Because it's important in the hearings to have some 
diversity, you made some specific charges with Ms. Jaramillo's 
testimony on a couple of particulars. But I don't want to get 
into a heavy debate over one organization. But it is a little 
bit enlightening as to how it actually gets applied on a 
specific basis.
    But I don't want that to be predominant the rest of this 
hearing.
    Next we'll go to Ms. Littrell from Inter-Faith Hospitality 
Network.

STATEMENT OF SHARON LITTRELL, EXECUTIVE DIRECTOR OF INTERFAITH 
                      HOSPITALITY NETWORK

    Ms. Littrell. Thank you very much for having me. I am 
Sharon Littrell. I am the executive director of Interfaith 
Hospitality Network here in Colorado Springs. We are a secular 
nonprofit organization that houses homeless families in 
existing facilities.
    Generally, we use church buildings to house the families 
that come to our program, though that is not always the case. 
In some places they use hospitals. And, in fact, Penrose 
Hospital has offered that, if necessary, we could house our 
families there.
    So we are Interfaith in that we work with many, many 
different religious organizations to house these families, and 
what we do is keep our overhead very low by not having to build 
buildings.
    As I said, by our name, we are not a religious 
organization. We do not arrange for hospitality or fix up 
lonely individuals with places to assuage their lonely feelings 
or needs.
    At Christmas-time, I had somebody call me up and say, ``I 
don't have a place to go for Christmas, and I would really like 
some companionship. Would you be willing to tell me where to 
go?'' So you can see that we get some mixed views about who we 
are.
    We are a community-based organization that has experienced 
wonderful partnerships with over 30 area churches and 
synagogues in this community. The partnering religious facility 
provides a place for IHN families to sleep. It provides members 
to fix and share hot meals every night of the year.
    This helps the four to eight families that must use our 
facilities to save money, and locate affordable housing. The 
national organization to which IHN formally belongs was 
formally called National Leadership Hospitality, recently 
changed its name to Family Promise, because the national board 
feels that Family Promise more accurately defines who we are. 
In Colorado Springs, IHN appeals to many religious 
organizations that have an outward mission. They help those who 
are in need, regardless of religious involvement. IHN guest 
families are often relieved that we do not require a statement 
of faith before we offer shelter, food, and hope.
    They also appreciate that the folks who help, volunteers 
and staff, do so because they are acting out their faith, not 
pushing it.
    Many of the people who participate providing services have 
their own religious faith. They just use their actions to show 
it, as opposed to words to prove it.
    In the past 4 years, IHN has received HUD funding through 
the continuum of care, which is a supernova stream of funding. 
We have applied for and received city of Colorado Springs 
funding, and presently have a Health and Human Services grant 
to initiate a jobs program for the homeless who use the 
services of IHN, Ecumenical Social Services, West Side Cares, 
or the Pikes Peak Community Action Agency.
    We also qualify for and receive FEMA funding. In other 
words, we do have a lot of Federal funding, and that helps us 
to be able to provide for the services that we give to people 
in this community. And by having that type of funding, we agree 
that we will do so, provide services without religious means or 
qualifications.
    Our services are provided without means testing for staff 
or clients, and they have positive results. During 2003, our 
families maintained an 86 plus percent success rate, as high as 
a 92 percent success rate toward the end of the year.
    That is, families entered IHN as homeless people. They 
worked at jobs to get back on to their feet. They saved money, 
and they located affordable housing. The Federal funding 
allowed IHN to provide expert case management services, a 
family day center for weekends and days when no work was 
available. It provided diapers, some clothing, cars for several 
families. And we did it by teaching, not preaching.
    Upon leaving IHN, several of our families were sufficiently 
impressed with the help and support that they received from the 
churches where they had slept that they returned to join that 
church. They did this on their own, without being pressured.
    Moreover, they now give back to the homeless community by 
helping at IHN or helping house homeless families at their 
place of worship.
    As a director of a nonprofit agency in Colorado Springs, I 
join other agencies seeking funds that would further our 
programs. IHN seeks a level playing field where we have an 
equal chance of receiving funds. Not one that stacks the favor 
in one group or another based on an artificial measure of 
religiosity. I appreciate the opportunity to be here, and would 
welcome your questions later.
    Mr. Souder. Thank you very much for your testimony.
    Reverend Dean Cowles is president of the YouthPartnersNet 
in Denver, CO. You used to be in Indiana.

 STATEMENT OF REVEREND DEAN COWLES, PRESIDENT, YOUTHPARTNERSNET

    Rev. Cowles. I was for 10 years, and then I found religion 
when I got to Colorado. My pastor said, ``You know why you're 
moving to Colorado? You can't get close to God unless you're 
5,000 feet above sea level.''
    But I did have 10 years experience in Indianapolis, 
starting a local faith-based ministry on East Washington Street 
there, and Mayor Goldsmith was our mayor. Over the years that I 
have been involved in urban faith-based ministry, and starting 
a homeless center, and a litany of other projects, it's my firm 
belief that the present administration is on the right track 
with leveling the playing field as the faith-based White House 
paper came out calling it.
    It's time for faith-based organizations to be able to have 
a chance to share what works. We're not talking about, you 
know, debating here who's better, who's right, who's wrong. 
We're just talking about what works. And if it works, great.
    And we have found thousands of organizations that I 
represent around the country through YouthPartnersNet and other 
compassionate ministries, that these programs work, and they 
work with far more impact for less money than the war on 
poverty welfare programs that have been pushed by government 
over the past 30 to 40 years.
    As I said, I was a founder and director of Shepherd 
Community Urban Ministry in Indianapolis. I was also the 
founder and director of Crossroads in the Westwood neighborhood 
of Denver. In 2000, I became the director for the Compassion 
USA Ministry Program, and just recently we have spun off that 
division of Compassion into YouthPartnersNet. We are trying to 
build capacity with hundreds of faith-based local grass roots 
organizations that don't have the sophistication to apply for 
government funds or private funds for that matter. They pretty 
much do it as volunteers, with tithes and offerings from their 
local church, and do a tremendous work in their local 
communities.
    Thousands and thousands of these grass roots organizations 
have continued this kind of work long before this debate ever 
began.
    In a book called the Tragedy of American Compassion written 
by Marvin Okasky, which is in my written testimony, which I 
don't have time to read my whole testimony, but he makes a 
great point in that before government entered this, it was the 
church that was doing it.
    But in the 1920's and 1930's, the 1920's and 1930, the 
church got out of that and government got into it. And we have 
seen some problems since then. So he's advocating, as I am 
advocating, that we level the playing field, and get more 
resources back into these local neighborhood and community 
faith-based organizations.
    And it can be done, and we have proven that it can be done 
without this whole debate of do they have to go to religious 
services? Do they have to do this? No, no, no.
    As you'll find throughout the country, these kind of 
services are provided with the most genuine spirit and love, 
and without coercion in most cases. Sure there will always be a 
few that take advantage of that. But I have seen across the 
country that these groups do it in a wonderful, loving, 
compassionate way.
    And we believe in the President's initiative. In fact, I 
served for the last few years on the Compassion Capital Fund 
review. And it's been a wonderful experience to see grant 
applications come from a variety of faith-based organizations 
to impact their communities.
    And we have gone through those applications, and have 
rewarded those with very excellent programming without a whole 
lot of money. Our encouragement to the Congress is to continue 
to fund that fund, as well as the other faith-based funds 
through other departments that have other faith-based 
provisions, and to continue to raise the level of funding for 
those faith-based groups.
    It provides more bang for the buck and anything else that 
we see coming along in the 20 years of my experience. We also, 
here in Colorado, have experienced some good funding locally 
from the Colorado legislature to the grant money for after-
school programs. That's been very successful. And the great 
thing about the funds that have come through Crossroads of the 
Rockies for $163,000, is that enables them to employ four staff 
full-time. And they worked with 350 youth. And, in addition, 
they have $350,000 of volunteer time that comes in every year.
    This is repeated around the country, and we're very excited 
about continuing to enhance those relationships. The winds in 
Washington are indeed changing, and we're grateful for that.
    20 years ago my wife and I would have never dreamed of 
being invited to this type of hearing. So my hat's off to you 
and the other Members.
    I'd also like to highlight in my last 16 seconds that the 
work that Mayor Goldsmith did was a national model in Indiana. 
But in his two books that I wanted to highlight for the record, 
Mayor Steven Goldsmith wrote Putting Faith in Neighborhoods: 
Making Cities Work Through Grassroots Citizenship and the 21st 
Century City and Resurrecting Urban America.
    Our mayor was a tremendous help to us, saved money for the 
city, employed homeless and teenagers, as well. And we have 
seen over the years that these faith-based partnerships work in 
a wonderful way. And we look forward to our continued 
discussion. Thank you.
    Mr. Souder. Thank you very much for your testimony.
    [The prepared statement of Reverend Cowles follows:]

    [GRAPHIC] [TIFF OMITTED] T4492.025
    
    [GRAPHIC] [TIFF OMITTED] T4492.026
    
    [GRAPHIC] [TIFF OMITTED] T4492.027
    
    [GRAPHIC] [TIFF OMITTED] T4492.028
    
    [GRAPHIC] [TIFF OMITTED] T4492.029
    
    [GRAPHIC] [TIFF OMITTED] T4492.030
    
    [GRAPHIC] [TIFF OMITTED] T4492.031
    
    [GRAPHIC] [TIFF OMITTED] T4492.032
    
    [GRAPHIC] [TIFF OMITTED] T4492.033
    
    [GRAPHIC] [TIFF OMITTED] T4492.034
    
    [GRAPHIC] [TIFF OMITTED] T4492.035
    
    Mr. Souder. Next is Ms. Jean Robinson from Denver Urban 
Ministries.

       STATEMENT OF JEAN ROBINSON, DENVER URBAN MINISTRY

    Ms. Robinson. I am Jean Robinson with Denver Urban 
Ministries, and we appreciate being heard today. Denver Urban 
Ministries is a 501(c)3 human service organization. We provide 
emergency services and basic needs such as food and clothing, 
as well as infant items, rent, and utility assistance.
    Through our job services, we provide the tools needed to 
provide employment. Through our education and advocacy 
programs, we provide ways for people to get back to their 
community.
    We were founded in 1981 by the Methodist church, and 
continue to serve as their mission arm in the community. We 
receive our funding from a variety of sources, including 
private foundations, individuals, and about 70 congregations, 
most located in the Denver metro area.
    We were founded by the Methodists, but we are non-
ecumenical. Our annual budget is about $500,000 a year.
    The purpose of DenUM is to nurse the spirit for community. 
We provide resources for people in crisis, and create 
opportunities for individuals in community growth and service. 
We have many different faiths represented by the staffing 
volunteers at DenUM. We do not discriminate in hiring in any 
way. We do not proselytize in any way. And we do not believe in 
putting any condition on the receipt of our services. People 
that come to us are in crisis, and they are vulnerable. They 
need assistance, not prayers and coercion and extra stress. 
They need common sense solutions to their problems.
    We do work, we do the work we do because we want to put our 
faith into action. We feel good about the work we do, because 
we see results which are measurable. There has never been any 
discrimination in faith-based agencies receiving government 
funding.
    The government has always provided funding to religiously 
affiliated organizations that provide social services. We were 
on a level playing field with every other agency that had a 
quality program and did not proselytize to their clients or 
discriminate in their hiring practices.
    The government has funded large faith-based organizations 
such as Catholic Charities and United Jewish Communities and 
smaller agencies such as DenUM. There is an important 
difference between being affiliated with a religion and being a 
religious organization, and I think that's an important 
distinction to note.
    By enacting faith-based initiatives, the government has 
actually taken away the level playing field and given faith-
based organizations an advantage, or at least a leg up, and 
this is wrong. If you can't do the work to apply for the grant, 
you can't do the paperwork involved in accountability.
    Another result has been to take much needed money away from 
direct services to put into technical assistance for small 
agencies or churches to learn how to access these funds. 
There's a Web site. There's been government sponsored workshops 
at Federal and State levels.
    In the meantime, there has been little change to the amount 
of cash assistance people receive when they are in programs, 
such as Social security or disability. Many people believe that 
all faith-based must be in favor of faith-based initiatives, 
but many of us are not.
    Many faith-based organizations are very concerned about the 
rights of our most vulnerable populations. At DenUM, we believe 
that if you help stabilize a family through income and housing, 
people will have time to explore their faith.
    We have witnessed many forms of religious abuse on families 
who are trying to get through a tough time only to be contacted 
with additional obstacles to attaining their goal by 
organizations who put conditions upon receiving their services.
    For example, an agency in Denver requires someone to attend 
religious services to partake in an evening meal. This may seem 
like a small requirement to some, but that's the point. If you 
are hungry or in need of shelter for yourself or your family, 
you will do anything required to get the services you need. 
It's wrong to require that people conform to your belief system 
in order to access to basic needs.
    It is not only wrong to insist upon these requirements, but 
it is a clear violation of the separation between church and 
State if you are receiving government funding for that program.
    There are pros and cons to government funding. We have had 
experience with two different funding sources. Neither are a 
part of the faith-based initiative or Colorado Compassion Fund.
    The Emergency Food and Shelter Program formally known as 
FEMA is a grant. We were awarded the money for rent assistance 
and food purchased. The money is deposited in our bank account. 
We document the money, spend the money, and report on the 
money.
    If you have good recordkeepers, this is an easy program to 
monitor. Contracts are more difficult. An emergency shelter 
that we run was granted a contract awarded to us by Denver 
County in which you will be reimbursed for funds.
    Our contract was for $14,000 for rent assistance to prevent 
homelessness. During the contract year, we paid upfront $14,000 
for rent assistance to clients that were reimbursed. This works 
out fine as long as the agency that is reimbursing you does so 
in a timely manner.
    Denver Department of Human Services reimbursed us on a 
monthly basis. Contracts do not work well when you are a small 
agency, and you have a contract that's not reimbursed in a 
timely manner. Our negative experience came in the form of a 
welfare work grant in 2000 to 2002. The problem was that it was 
our intent to use this grant to serve our existing population.
    Unfortunately, qualifications were so intense that few in 
our existing program qualified, and we ended up serving a new 
population. The second problem was the reimbursement schedule, 
which was not timely. At one point, we were fronting the 
government $16,000, they were 3 months behind in reimbursing 
us, and I didn't have enough money in the bank for payroll. The 
third problem is paperwork. You have to have qualified staff 
who can handle the documentation and the bureaucracy involved, 
and checks and balances in place to ensure that this 
documentation is done, before you tack on the responsibility of 
government money.
    The paperwork is immense and repetitive. None of this is to 
say it should be easier. It is a serious responsibility to be 
good steward of taxpayer dollars. Faith-based organizations 
should have to jump through the same hoops and have the same 
work. Tax dollars should not be spent on promoting religion.
    Religious organizations and organizations with religious 
affiliations should not be exempt from accountability. If 
organizations want to promote their religion, they should use 
private funding to do it.
    We need to remember that all citizens are guaranteed their 
civil rights, even if they are poor, uneducated, mentally ill, 
addicted to drugs, non-Christian or non-White. Thank you.
    Mr. Souder. Thank you.
    Next we have Mr. Ed Anderson, vice president and chief 
financial officer of Compassion International.

   STATEMENT OF ED ANDERSON, VICE PRESIDENT/CFO, COMPASSION 
                         INTERNATIONAL

    Mr. Anderson. Thank you, Mr. Chairman. Thank you for the 
invitation today.
    I've been with Compassion for about 25 years now. And our 
organization takes us to the most difficult living situations, 
the poorest communities to minister to more than 550,000 
children through over 2,500 local church partners in 23 
countries.
    Each child has a name and a future, and each partner sees a 
promise within each child. We believe there are four 
characteristics that set Compassion apart. Our organization is 
Christ centered, church-based, and committed to integrity.
    We partner with local churches to teach, train, and mentor 
children in a safe environment together with the parents and 
the community. We directly engage each child as a complete 
person. We teach the life-changing gospel to every child in a 
culturally relevant way. And in all of our work, we are 
committed to the highest professional, financial, and biblical 
principles.
    In addition, Compassion speaks out for children who can't 
speak up for themselves, informing, motivating, and equipping 
others to become effective advocates for children.
    In the United States, our challenge to advocate for 
children is aired on our radio program ``Speak Up with 
Compassion'' on nearly 500 stations every day. Through 
efficient and effective child development programs, we enable 
children to become responsible, fulfilled Christian adults. 
More than 80 percent of dollars go directly to child 
development programs. Compassion's field office staff are 
primarily nationals who speak the local language and understand 
local culture.
    A key to our success and sustainability in our child 
development programs is that we partner with the local 
organization that has been in existence for decades, and will 
continue to be present for generations to come. We partner with 
the local church. This provides us with a sustainable 
infrastructure at a very low cost.
    Compassion has been recognized by the American Institute of 
Philanthropy with an A rating, is a member of the Better 
Business Bureau Wise Giving Alliance, and is a founding member 
of the Evangelical Council for Financial Accountability.
    In addition, we conduct regular internal and external 
audits to ensure children are receiving the opportunities and 
benefits promised.
    During Compassion's 52-year history, we've seen many 
approaches to breaking the cycle of poverty in children's 
lives, and over the decades we've discovered that changed 
circumstances rarely change people's lives, while changed 
people inevitably change their circumstances.
    At Compassion, we believe in changing the world one child 
at a time. Through our leadership development program, 
qualified young people have the opportunity to attend 
university in their country and field of their choice.
    In addition, these young people are mentored and taught 
time management, provided spiritual training, and Christian 
leadership skills. These compassionate children grow up to 
become leaders and influencers in their own cultures. Changing 
their communities, their countries, and ultimately the world.
    The world's poorest children are often defenseless. Some 
are brutally forced into labor, others are driven into the sex 
trade, and still others are coerced into service as soldiers. 
Children face illiteracy, abuse, and hopelessness at almost 
every turn.
    Never in Compassion's 52-year history have we encountered 
an enemy with the prospect of totally destroying the God-given 
potential of millions of the world's children.
    That is until now. The HIV/AIDS epidemic threatens millions 
of African children today. In Africa alone, more than 14 
million AIDS orphans are homeless and financially desperate.
    We've seen children as young as 8 years old care for 
themselves and their younger brothers and sisters. No one 
organization, no one government, and no one strategy by itself 
can completely address the needs of those affected by AIDS. We 
call upon every person, every organization, and every 
government to meet the challenge of this epidemic.
    We serve a God of miracles. We believe we can harness human 
ingenuity and resolve to meet this challenge.
    Compassion applauds President Bush and Congress for their 
historic commitment to reach out to the global community 
impacted by AIDS, and we urge the President and Congress to 
release full funding to help our brothers and sisters in Africa 
impacted by AIDS.
    Compassion also congratulates the President and Congress 
for its important work in the faith-based initiatives. We know 
that many nonprofits efficiently and effectively use this 
critical government funding to change and save millions of 
lives every year.
    Despite AIDS, despite poverty, despite the enormous 
challenges facing today's children, Compassion sees the world 
as a place of hope, and we see daily how tiny seeds of faith 
transform the lives of individual children next door in our 
communities and halfway around the world.
    Working together with other nonprofit organizations, church 
partners, and child sponsors, Compassion will continue to 
deliver God's promise to each child, and everlasting hope, 
strong faith, and a bright future. Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Anderson follows:]

    [GRAPHIC] [TIFF OMITTED] T4492.036
    
    [GRAPHIC] [TIFF OMITTED] T4492.037
    
    [GRAPHIC] [TIFF OMITTED] T4492.038
    
    [GRAPHIC] [TIFF OMITTED] T4492.039
    
    [GRAPHIC] [TIFF OMITTED] T4492.040
    
    [GRAPHIC] [TIFF OMITTED] T4492.041
    
    Mr. Souder. With the Senate passing an appropriations bill, 
one of the most important categories was for the AIDS funding. 
We're nowhere near full funding, but at least it's a 
significant bump up tied directly to the vote yesterday.
    Next, Ms. Jackie Jaramillo, executive director of Faith 
Partners. If you want to give both your general statement and 
then if you want to make any specific comments, I'll give you a 
little bit extra time, because I also gave a little bit of time 
later.

         STATEMENT OF JACKIE JARAMILLO, FAITH PARTNERS

    Ms. Jaramillo. Well, thank you. I'm Jackie Jaramillo, and I 
represent a coalition of a little over 100 churches in Colorado 
Springs. And Faith Partners wouldn't exist without--Faith 
Partners is actually the faith community's response to welfare 
reform in our community.
    Many of us were working, those of us in the faith 
community, were managing and working with benevolent ministries 
like West Side Cares and ESM and Catholic charities and 
Salvation Army. We were working in the community, and we began 
to read about how welfare reform would be implemented, and how 
there would be time limits. We felt that the people who were in 
generations of poverty would really not know where to go after 
they got cutoff. So we started a dialog with the county to 
really ask the county what their safety net would be. And as it 
turned out, that dialog, which took place over an 18-month 
period of time, turned out that we were trying to discover what 
our responsibility would be.
    We knew that our pockets were not deep enough to sustain 
people in the way that welfare sustained them. And so at the 
time, David Burns was the director of the Department of Human 
Services here locally. And he challenged the churches to find a 
way to, No. 1, work together.
    He didn't want to, there were lots of agencies who had been 
contractors with the county before. They could have come 
alongside and formulated some kind of response to help families 
break the cycle of poverty in their lives. But David Burns was 
insisting that we work together. And that really was the 
catalyst that formed the coalition. So we formed a coalition, 
and we were very inclusive and everybody was invited to the 
table in the early, beginning stages. In the beginning when we 
started that dialog, we were Interfaith, and we did have other 
faiths, non-Christian faiths, at the table in the dialog with 
us.
    In addition to that, I cannot forget to mention the fact 
that the community was well-represented, because David Burns 
and many of the people from the community from the government 
side were also involved in the dialog, and never missed a 
meeting.
    So as we began to formulate our response, we decided that, 
we came to the conclusion that, the way that we would respond 
to welfare reform is not with our pocketbook, but with our 
lives, and that we would provide hope and purpose for families 
in the community that were trying to break the cycle of poverty 
in their lives through a monitoring program.
    So we developed and we examined mentoring programs from 
across the country, and we borrowed the best practices from 
those mentoring programs. I'm sure you've heard about many of 
them. Pathfinders in Texas and a lot of others, various, all 
secular, by the way. And we took the best practices from those, 
and we've formulated what has now become Faith Partners.
    Faith Partners is a faith-in-action program. We do not 
evangelize. We do not proselytize. We serve anybody who 
requests our services. It is a ministry of the church itself. 
The people on the staff provide training to the mentors. We 
provide training to the families prior to them coming into the 
program, so that they understand what they're committing to, 
and then the two form a team.
    We have a team approach of four to six mentors that work 
exclusively with one family for an entire year. We have an 
evaluation system in place that we started from day one to 
prove our effectiveness, and we have proven effectiveness in 
all of the families that we've served.
    We've witnessed behavioral changes, attitudinal changes, 
and economic changes. And so we've taken a very skill-based 
approach to mentoring these families.
    We have a better than 89 percent success rate for the 
families that we've worked with. And in the 5 years that we've 
been in existence, we've served over 150 families.
    So we believe that what Faith Partners has created in their 
partnership with the Department of Human Services is a good 
model. And we believe that it is working, and it is very 
satisfying work, and we have found a way in which both sides 
can benefit.
    The faith community has their response, in terms of 
bringing volunteers that provide the mentoring services. And 
the county, of course, provides the funds for us to operate.
    Our funds are a little over 100,000 a year, and they 
haven't changed significantly over the 5 years that we've been 
in operation.
    I'm a little bit taken aback by the comments of the 
panelist earlier. I have never heard that you had that kind of 
reaction to the Bill Moyer show, and I'm really sorry. I'm 
totally accessible to you, and you could have come to me with 
those concerns, and I would have been able to explain to you, 
as I did in my response to Bill Moyer after the show was aired, 
how disgusted I was with how he twisted and turned and took 
journalistic liberties on that show.
    He actually filmed, his production crew filmed 20 hours of 
work that Faith Partners did, and he chose to give a show that 
sort of strapped us with this separation of church and State 
debate, which was really unfair to the work of Faith Partners 
and all of the people involved in the partnership locally.
    In addition to that, I have two and a half staff people. 
And with those two, we support over 300 volunteers and 30 
families that are being mentored in our program, and we are 
totally open.
    If any congregation, whatever faith they are, come to Faith 
Partners and want to have a mentoring team, we would embrace 
that completely. It's part of our constitution. It's part of 
how we started this, to be very inclusive. And we've never 
turned away anybody.
    It's part of who I am in the community, as well. I 
represent a lot of churches that really are in conflict with 
each other theologically, but that's not my concern. I'm 
working with those individuals who come forth to give of their 
time to help families break the cycle of poverty in our 
community.
    Bill Moyer had a particular point that he wanted to drive. 
And in terms of my using the word ``covert,'' I was trying to 
explain to the interviewer how we were a faith in action, and 
not evangelical. We were not evangelical in our approach to 
working families. And I was talking about a book that was 
written that was called the Kindness Conspiracy.
    It's written by an author, and it talks in that book about 
how Christians are very uncomfortable speaking and talking to 
somebody else about their faith, but they are not uncomfortable 
with acts of kindness. So he took that conversation completely 
out of context. That was an off-the-record conversation we were 
having, and he threw a question at me during the interview, 
which brought that word ``covert'' up again. And so I actually 
used the word ``conspiracy'' not ``covert.'' And it's a 
conspiracy of kindness, and it's what all of us operate under. 
We all are in the work that we are in for the acts of kindness 
that we give and that gives our faith purpose. It gives us 
purpose. And so end of story.
    Anybody who wants to contact me and know further what that 
interview was all about, I'm totally willing to spend time 
explaining the true intent of Faith Partners and what we're 
trying to accomplish in the community. Thank you.
    Mr. Souder. Thank you.
    Thank you. Our clean-up panelist for today is Mr. Bob Cote, 
executive director of Step 13 in Denver.

           STATEMENT OF BOB COTE, STEP 13, DENVER, CO

    Mr. Cote. Yes, my name is Bob Cote.
    Mr. Souder. That's the English pronunciation, Cote 
(pronouncing)?
    Mr. Cote. Bill collectors say that. I started Step 13 20 
years ago, because I was an alcoholic. And I look out my office 
at the bar, Los Compadres, where I poured out half a fifth of 
vodka, which at that time would have probably took five good 
men to get away from me.
    And at that time, I was beginning to realize that I was 
committing suicide on the installment plan. And I went from 
making $100,000 a year to drinking on skid row. But there was a 
rhyme and reason. I got to know all those men down there, and I 
started running a restaurant for $450 a month. And I made the 
deal with the board of directors that we would never take any 
Federal, State, or city moneys. Never solicit for United Way 
money, Season to Share money. That we're going to do it on our 
own. If it was meant to be, it would be. And that was 20 years 
ago, and we're here. So we've done pretty well.
    Our budget is around $480,000 a year. We raise 50 percent 
of that. We have three in-house businesses. We're two blocks 
from Coors Field. I have an auto detailing car wash business. 
And during the Rockies season, we're pretty busy. I pay them 
$10 an hour.
    All of my staff consists of residents of Step 13, with the 
exception of one. I have a young lady that helps me 
administratively. And I believe it takes a duck to deal with a 
duck. If you have a fox start dealing around with some ducks, 
you've got a problem. And we have a lot of that in this 
country.
    And I think what we're leaving out of this, I believe you 
mentioned Marvin Okasky and Bob Woodson, and what happens, and 
this has been going on for years, everyone says programs are 
faith-based and community-based, but nobody says community-
based. It all says faith-based, and everybody gets jacked out 
of shape. ``Uh-oh, we're going to be dunking them in a tank of 
water,'' and doing this and that and whatever.
    I'm not a minister. I named Step 13 Step 13 because of 
Jesus and the 12 apostles, and the original 13 colonies. God 
and country. That is what did it for this guy. Because I was 
invited to the White House 7 years after I poured that vodka 
bottle out. What other country could that happen in, or could 
you envision to have this vision in your mind and have this 
work?
    Our success rate is 39 percent. But I'm not dealing with 
all the boys. I'm dealing with hard-core drug and alcoholics 
that have been on the street 10 years, 15 years.
    And you mentioned Pastor Freddie Garcia down in San Antonio 
or Houston. And I've known him for many, many years, through 
Robert Woods and the National Center for Neighborhood 
Enterprise. And when Newt Gingrich was the speaker of the 
House, we used to meet with him once every 4 months. And we've 
brought up all of these things that I've been saying.
    Here today, years later, we're still doing it. But I think 
it comes from, why don't you give vouchers? John Walter spoke 
about this a couple months ago. And I believe that Congress has 
approved it, and that they're waiting for the House, or they're 
waiting for the Senate, but it was a couple of hundred million 
dollars for alcohol and drug treatment.
    I have a church. It's not mandatory. And I've had Rabbis 
there. I've had priests there. I've had Mormons there. 
Whatever. I rotate them. And they act as mentors.
    They don't have to go to the church. They can go instead to 
the meeting room downstairs and watch a 4-hour Father Martin 
movie or go to the church and listen to the music or whatever.
    And the tickets to the Rockies have been very good to us 
and so on and so forth. But I truly believe that vouchers would 
be the answer. What would be the difference if a Catholic went 
to a Baptist shelter or whatever? And ``shelter,'' I don't like 
that word. We shelter horses and cows and things like that. We 
should do more for people.
    And I don't have a time limit. The longest I've had someone 
stay there is 3 years. But they have to get a bank account, and 
there's a pecking order. And we're in the process of purchasing 
an apartment house for the next step.
    But faith-based, that's a great idea. Catholic Charities, 
Mary Bolan, at one of those congressional hearings, she said, 
``If we have to adhere to these rules, then we're not going to 
accept any government money.''
    Well, I beg your pardon. Two-thirds of their budget 
nationally comes from the Federal budget. They don't want 
anyone--it's like territorial. And that's the problem.
    This isn't that complicated. You know, I think we're all 
here to help people, you know? And there's always a barrier or 
an ``if,'' or you're a right-wing, mean-spirited Christian 
fanatic. And I'll take that.
    Is it mean-spirited to ask someone that's ruined his life 
drinking, with drugs and alcohol to get his act together and go 
to work and take care of himself and be responsible for his 
actions? To ask children to stop having children. Is that mean-
spirited? I don't think so.
    If it is, I'll take it. But we have to get real, and we go 
around and around and around. And you're going to another city. 
Let's just put the hammer down and say, ``Let's try it.''
    We have this President at this time, and I don't think 
we're going to get this chance again. While the President is in 
office, you and I know that Senator Samtorum, who I talked to 
in the first year he was elected--I testified before his 
subcommittee. Senator Cohen was President Clinton's Secretary 
of State. But we got something done.
    See, there's three kinds of lies: Statistics, statistics, 
no, lies, lies, and statistics. And people know these numbers 
all over the place. And we need to be accountable.
    If you're going to get faith-based funding, then you need 
to be accountable for every person and what happens with that 
person, and stop shooting numbers all over the place. Be 
honest, and I think it will work.
    We're not talking a lot. Why not give it a chance? If we're 
wrong, we'll take our medicine. If the other side is wrong, I 
doubt they'll take theirs.
    I see the red light. This faith-based bird, say it's a 
bird. You've got the left wing flapping 90 miles an hour, and 
the right wing has got a little crazy glue on it with a little 
feather, and not quite get going. So the bird is never going to 
get off the ground. So what are we going to do.
    We've got to get the left and the right wings flapping 
together, and let's get this thing going and help some people 
and do some good. That's all I have to say. Thank you.
    Mr. Souder. Thank you very much for your testimony. Very 
diverse testimony.
    And let me just lay out a couple of general comments to try 
to fill in the blanks before I start with a process of some 
questions.
    Let me make just a couple of things clear, because I've 
been working with this issue since the early 1980's. So let me 
put it in a little bit of historical context, so we don't have 
to revisit some points in the debate.
    First off, faith-based initiatives are not new. And here's 
why. They've historically given to groups that didn't direct 
faith as part of their delivery of services.
    In other words, some of what we've talked about is as long 
as you don't overtly share your faith as part of those 
services, there's never really been a question.
    And one of the fundamental questions I'm going to ask is 
how is that different than a Christian working for the welfare 
department? Because there have been Christians, Jews, Muslims 
who have worked for the welfare department. So what makes a 
faith-based ministry that doesn't have faith as part of it 
different than a secular ministry manned by people of faith?
    The next question is the first expansion to kind of faith-
based ministries, where they shared their faith, where we got 
into the legal question of could you have a crucifix posted? 
Could you have a collar? Could you share a prayer. Could you 
start sharing with your faith with somebody and not lose your 
grant? That came largely through the pressures of Bob Woodson 
and Jack Kemp under President Reagan.
    Because at that point, hardly anybody would deliver those 
social services, except people who viewed a higher value to 
eternal rather than present.
    And so all of a sudden, grants went out from HUD to overtly 
religious groups with no questions asked, because nobody else 
would provide the services.
    Something similar started happening with homelessness. It's 
clear Congress will never appropriate enough money for 
homelessness. And without overtly religious groups being part 
of the homelessness problem, there wasn't going to be an 
ability to meet that.
    So grants have gone out in the homeless area and the AIDS 
area long before there were overt pieces of legislation to 
address the faith-based organizations. Then we started to 
expand that into other categories. When the Republicans took 
over Congress with welfare reform, that was the first 
initiative where faith-based groups were coming into more 
traditional source type of things, where you start running 
into, ``There's a limited pot. Should some of this pot be 
diversified.''
    We passed it on welfare reform. It passed in the House 
under Rick Laslow's committee when we first took over Congress. 
We passed in the House at least five other bills.
    I think, as I mentioned, I believe four became law. And the 
restrictions got narrower and narrower.
    For example, as we started in the education committee to 
deal with some of the things, when you're dealing with the Head 
Start program, it's a little different than other things. So we 
had to have--you couldn't have prayer any closer--the amendment 
that I agreed to was any closer than 5 minutes before it 
started. So there was a clear break, so nobody was made to feel 
uncomfortable. You couldn't have prayer during the session, so 
there would be no proselytizing.
    The Head Start program was the Head Start program, but that 
doesn't mean that the people that were running the program 
didn't have, ``a covert part of that.'' They were reaching out 
and covering part of their mission with their behavior and 
their religion.
    But there are different rules depending, and fundamentally, 
on the faith-based things, that we get this clarified. Unless 
there's choice, unless a recipient has a choice of services, 
there won't be government funding that allows any direct 
involvement of religion.
    Except where nobody's providing services, that becomes a 
different challenge. And that's where we're getting into some 
of these international questions. We're starting to explore 
that, because if nobody else is delivering it, do you treat it 
differently?
    You can't, if you have government money, discriminate on 
who's receiving it. You can't do that. Now, one debate is can 
you put any conditions on it? But you can't say, in other 
words, they have to attend a talk. You can't say, ``You have to 
be a Christian. You have to be a Muslim. You can't be a Jew.'' 
You can't do that with government funds. These things are 
agreed on. There are already court rules. So we've got a much 
narrower debate that's occurring here. Now, as we move into 
areas, and this is why we constantly have these hearings, to 
the frustration of the grass roots movement. I'm going to go 
through and sort out here how we're going to go through the 
questioning process.
    But let me just say that part of the reason--let me give 
you a couple of political comments, so when you hear followup 
discussion on this, you can put this in context.
    Some of the problem is here that, I remember we had a 
meeting with Steve Goldsmith when he was putting together this 
initiative for President Bush, when Governor Bush was still 
running for President. And he said, ``Why is this so hard 
getting this through Congress.''
    Let me tell you, Democratic constituencies are less 
amenable to faith-based organizations than to overtly religious 
organizations. And Republican Congressmen and Senators tend to 
represent suburban and rural groups, not urban ministries.
    Therefore, there is no overt constituency that is in 
Washington that says, ``How do we reach the poor through faith-
based organizations?'' And the faith-based has a pattern, 
though Focus on the panel said they didn't want it, neither do 
lots of the other big ministries want direct government 
funding.
    That's not what this was designed for. But it's been very 
hard, because, bluntly put, when many Republicans figured out 
this wasn't going to be money going to their districts, they 
were less enthusiastic about it. And the Democrats weren't 
backing it from the beginning, with very few exceptions. So 
it's been very hard to move it through, except piecemeal. But 
people like myself who have been backing it from the beginning 
believe that contrary to statements that groups have been 
eligible for years, because of the government bureaucracy, 
Black and Hispanic groups particularly in America, who live in 
the neighborhoods, have not been part of the process.
    Getting them to be part of the process requires some 
minimal investment of government funds and capital. And, quite 
frankly, we have a bill that's co-sponsored by Jerry Nadler, 
Bobby Scott, Chet Edwards, Barney Frank, who support the 
compassion capital idea, as long as they aren't getting 
government funds and aren't able to receive government funds 
with it.
    In other words, part of it is to build the capacity of 
groups like Step 13 to go to private foundations to get the 
money, not just government funds. And in the context of tens of 
billions of dollars, putting some money into developing the 
capacity of organizations that are often unheard, which is what 
Mr. Cote was referring to.
    You heard a long-time frustrated example of, ``We don't 
even know how to get included in the process of the United 
States. We're too busy working out in the street, and we don't 
know how to go about it.''
    Steve Goldsmith, who is Jewish, did these initiatives in 
Indianapolis, because he didn't know how. He knew he wasn't 
going to get any more tax revenue. He didn't know how to meet 
the revenues. He said, ``Any comer that wants to do this, come 
on board. We don't know what to do about homelessness. We don't 
know what to do about health care.''
    And the challenge in front of us is, is there enough room 
at the table that, in some form, faith-based groups can be 
included. And I want to reiterate, as I did in the first panel, 
there are tax breaks we already agreed with. We have that in 
Federal law. Compassion capital fund is more debateable. What 
the administration is currently doing through Executive order 
with some of the grants is even more debateable. And, quite 
frankly, it's headed for pork.
    It's just where the decision is going to be, and where it's 
going to go, because there's a little bit more. Because for 
some of them, there are choices, and for some of them, there 
aren't. And then there's another category where the voucher 
word is almost as controversial as saying an overt Jesus Christ 
word.
    The voucher word in Congress is about as debated as you can 
get. But nevertheless, this is a different ballgame when 
there's a clear choice of somebody with a voucher. But that 
requires there to be program choices. Because a voucher for 
Head Start doesn't work in eastern Colorado where there may 
only be one Head Start center in several hundred miles. So we 
clearly have to, as we work through the voucher question, work 
this through.
    Now, with that as kind of a background of what we're doing, 
I want to establish, first off, Mr. Tollefson, let me ask you a 
question. Does your organization provide social services?
    Mr. Tollefson. Only in the work we do. And we do not 
discriminate on any basis.
    Mr. Souder. But you provide social service.
    Mr. Tollefson. No, we do. The services we provide to are to 
families who are in some celebration. It might be a memorial 
service, it might be christening, it might be a wedding, it 
might be some kind of counseling.
    Mr. Souder. But you do provide counseling or some kind of 
services? It's not just a meeting services.
    Mr. Tollefson. Yes.
    Mr. Souder. I wanted to make sure.
    Mr. Tollefson. And I have a response to your question.
    Mr. Souder. I didn't have a question yet. My question was--
--
    Mr. Tollefson. What makes them different than social 
services.
    Mr. Souder. I'm going to come to that question in a minute. 
First I wanted to establish that you all provide some sort of 
services.
    My first question is an assumption. And rather than taking 
a long time with each answer, I just want to correctly see if I 
identified that.
    Mr. Whetstone, for Feed the Children, hiring practices and 
ability to openly share your faith would be a problem if you 
couldn't do it?
    Mr. Whetstone. Not necessarily.
    Mr. Souder. It depends on the type of program that you're 
particularly involved in.
    Mr. Whetstone. Absolutely. We recognize the diversity of 
faith. It's a holistic approach.
    Mr. Souder. So, for example, if you were doing a food bank, 
you could theoretically set up a food bank where you would hire 
people of different faiths in your food bank.
    Mr. Whetstone. Absolutely.
    Mr. Souder. You could have a Muslim working in that food 
bank and distributing food, and that would be considered. 
Because you don't require a statement of faith from all 
employees.
    Mr. Whetstone. That's exactly right.
    Mr. Souder. But as a mission, your primary mission, for 
example, if somebody wanted to be on your board of directors, 
or part of your corporation, do you presume that they have a 
Christian mission in that?
    Mr. Whetstone. I think it's part of the Christian mission. 
And having a heart for service as we're taught in the Bible.
    Mr. Souder. So would you function with a board that was 
majority non-Christian.
    Mr. Whetstone. We don't, but we could.
    Mr. Souder. So your organization, I would put in the mixed 
forum. We would have to identify that more clearly.
    And as I understand, Mr. Tollefson, you would require a 
statement of faith.
    Mr. Tollefson. Absolutely not. The issue is not whether 
they conform to my faith, but what is their sense of the 
sacred. That's what's really important. Because people do have 
different views of what that is.
    Some will follow Jesus. Others will follow Buddha. Others 
will follow the natural path of nature. The issue is what is 
sacred, and not just materialistic.
    Mr. Souder. But that is your opinion of the issue.
    Mr. Tollefson. That's who I serve and what I would not 
expect.
    Mr. Souder. Ms. Littrell, my understanding is you would 
have openness as to who would be on. There wouldn't be a 
requirement of a statement of faith?
    Ms. Littrell. There's no requirement for anybody.
    Mr. Souder. And, Reverend Cowles, in your organization, 
would you have an overt statement of faith about any 
organizations you had?
    Rev. Cowles. Yes.
    Mr. Souder. So you have some organizations that don't? For 
example, would you be to able segregate. Conservatives have 
complained about this for years. That Planned Parenthood will 
get Federal funding, even though it's banned for abortions.
    They'll get abortion counseling in one section, and non-
abortion counseling in another section. So anybody that argues 
that religious organizations shouldn't have that spread, will 
also cutoff Federal funding for Planned Parenthood.
    Because, in fact, if you have separate divisions, you allow 
that to occur. But you're saying you would have a consistent 
statement of faith.
    Rev. Cowles. Our ministry hires their own people, but I can 
speak for them that the majority of their leadership would have 
definitely a statement of belief. And, in fact, most of them 
hire right out of their own congregations.
    But further on down the line, cooks and helpers and 
janitors, you know, no. Many of them hire, in fact, lots of 
people hire people that come to their program from whatever 
background they come from.
    Mr. Souder. It probably depends on what the mission is.
    Rev. Cowles. And whether their job description is critical 
to the ongoing leadership and development and strategy of the 
organization.
    Mr. Souder. Ms. Robinson, my understanding is you wouldn't 
have a statement of faith.
    Ms. Robinson. No.
    Mr. Souder. Mr. Anderson.
    Mr. Anderson. We do.
    Mr. Souder. You do?
    Ms. Jaramillo, my understanding is you had a broader--as 
far as this particular program?
    Ms. Jaramillo. That's correct. We do not have a statement 
of faith. We have core values. And as long as the people who 
apply for work with us embrace these core values, that is good 
for us. And these core values are all related to how we treat 
the families.
    Mr. Souder. Mr. Cote, what would your position be?
    Mr. Cote. We don't care what they are. We don't have a 
statement. We just take whoever the best person is.
    Mr. Souder. If somebody was an atheist, would they be part 
of your staff?
    Mr. Cote. Just about every guy that comes in there is an 
atheist.
    Mr. Souder. I don't mean the people that you serve. I mean 
the people that counsel.
    Mr. Cote. I don't have any counselors and therapists, 
because if counseling and therapy worked, they wouldn't need 
Step 13. They lead by example.
    I do not have a time limit. Somebody that comes in there 
out of the gutter, and he's buying a 2-year-old car, and he's 
got $5,000 in the bank, and he's got a loan to pay back. I made 
a deal with Wells Fargo.
    Mr. Souder. Do you have any paid staff?
    Mr. Cote. None of them make less than $20,000 a year.
    Mr. Souder. So your organization is nothing like a 
traditional hierarchal organization because of the way you use 
them at the Rockies game and other things? In effect, your 
staff is going to be much more diverse, your key people are 
going to share your shared mission and vision of the guy coming 
in, but he would still be paid staff.
    Mr. Cote. All of my staff are either ex-addicts or drunks 
or what have you. And it takes a duck to know a duck. And if I 
took government funds, I'd have to have some foxes sitting 
around, and then my ducks would get all upset.
    Mr. Souder. So we have an illustration of the diverse 
hiring approaches. And without changes in the law, at least two 
groups wouldn't be directly eligible without some structural 
changes or separate 501(c)3 to move it.
    Your group, which you don't want the funds, but, for 
example, if the government had an excess building somewhere in 
the area of your ministry, would you be interested in having 
your organization be able to bid for that? In other words, to 
claim if for whatever back taxes are, or just claim the 
building.
    Mr. Cote. I thought about that. But someone earlier was 
talking about vacant government buildings. With the Stuart 
McKinney Act, I get flyers from, I think it's the General 
Services Administration. And at the old Stapleton, no, Lowry, 
when they converted that over, nonprofits got first choice.
    Mr. Souder. Yes. What I proposed earlier and what I said 
came about. We take what's in the homelessness act, and apply 
it to other kinds of programs, such as drug treatment, juvenile 
delinquency, and other types of things.
    Mr. Cote. I think that's great. And I think faith-based 
organizations should be--I know a lot of them that are small. 
It's a mom and pop organization. They don't know how to write a 
grant. They don't have computer skills. And maybe you could 
direct some of, instead of the funding, just some experience 
and some help.
    Mr. Souder. Let me go back to my question and start with 
Mr. Tollefson.
    How would you delineate that a faith-based organization is 
faith-based, if there is no statement of faith in that mission? 
And how does it differ from a person of faith who works for a 
welfare office?
    Mr. Tollefson. Well, first of all, the difference for me is 
whether there's proselytizing versus personal choice or 
personal decision. When people are in trouble, they need to 
make some decisions about themselves. And when you're giving 
them the answer, that may not be their answer.
    Mr. Souder. But that's not the question I asked. The 
question is, that's true for the welfare department too, right?
    Mr. Tollefson. They would not proselytize.
    Mr. Souder. So how does someone who has a so-called faith-
based ministry who's providing ministries differ from somebody 
of faith that's working at the welfare department?
    Mr. Tollefson. What this lady said and what that lady said.
    Mr. Souder. How is that different?
    Mr. Tollefson. You live your faith. You don't preach it.
    Mr. Souder. But you do that at the welfare department.
    Mr. Tollefson. If that staff member were in my 
organization, they would be fired yesterday. Because social 
services are to do the work that this gentleman is talking 
about. Do the work. Find the place to live. Get the food. How 
do your children get the shots? Help them to live their life, 
and to help them organize that.
    And there are a lot of conceptions that we can use that 
will help us do that.
    Mr. Souder. But whatever, first of all, if it doesn't have 
faith, and it's not part of the faith-based discussion.
    [Discussion off the record.]
    Mr. Souder. First off, let me clarify. You don't believe 
that people of faith who work for government entities aren't 
doing a good service?
    Mr. Tollefson. Yes, many of them are. But they don't do it 
when they wear their religion on their sleeve.
    Mr. Souder. But that's not the question I asked. How does a 
person of faith who's doing a good service by working in the 
local homeless department who's distributing immunization shots 
differ from a faith-based organization where they also don't 
talk about their faith and do a good service by doing 
immunizing? What is the difference between those two people 
living it, not talking about it?
    Mr. Tollefson. Well, I would say being competent. I'd like 
to say----
    Mr. Souder. But you're not saying government people aren't 
competent.
    Mr. Tollefson. There are some that aren't.
    Mr. Souder. Well, there are some in the private sector that 
aren't also.
    Mr. Tollefson. Of course. If your faith is vibrant, it 
seems to me that you would really work at being competent. Ever 
more competent. It's like the counselor trainer said at a 
Christian related university. He said, ``If you have a choice 
between a Christian counselor and a good counselor, choose the 
good counselor.'' That makes sense. See, it's competence.
    Mr. Souder. Yeah, I don't--even though----
    Mr. Tollefson. And if your faith is vibrant----
    Mr. Souder. I'm not comfortable having the record say--I 
believe we can do a better job of delivering social services, 
but I don't think it's fair to say that government employees 
aren't competent.
    Mr. Tollefson. I'm not saying that.
    Mr. Souder. But if competence is the only measure----
    Mr. Tollefson. Competence comes from a lot of directions, 
sir.
    Mr. Souder. Let met ask Ms. Littrell the same question.
    Mr. Tollefson. Yeah, please.
    Ms. Littrell. Well, I don't believe that anybody is more or 
less competent because of their faith or because of their 
expression of faith. I believe their competence is because of 
their education and their experience. And so I would say that 
you can be--the people in my organization all have faith. They 
just don't have to tell somebody about their faith.
    Mr. Souder. I understand that part. But that's not what my 
question is. I understand you don't feel they need to tell 
them. So how are you different from somebody who shares your 
faith that's working for the welfare department?
    Ms. Littrell. We're not.
    Mr. Souder. So why would you call yourself a faith-based 
organization, other than a social service?
    Ms. Littrell. First of all, we work with a lot of churches. 
We really are a community-based organization, rather than 
faith-based. We really are not a ministry.
    Mr. Souder. That's important. Because there are government 
entities. There are nonprofit entities which are all-inclusive. 
There are community-based organizations, which one of the 
things that I like to keep threatening to put in, and everybody 
panics, is the ZIP code test.
    So at least a fair percentage of the people live in the 
neighborhood when they get the grant. But nobody seems to want 
to touch it. And then groups that have a component to it that's 
more faith-based, and I'm trying to sort out here which groups 
are faith-based, where there's a faith component, and whether 
that makes them different than government. Because that's what 
part of the debate is.
    You all are already eligible. That isn't the question. It 
is, are groups where faith is a component either in a set-up 
where it's kind of what I would term there, but less direct--in 
many cases, like the like Feed the Children and Mr. Cote, where 
they would say--I don't want to put words in your mouth. Is 
this a correct statement? Because we've had this come up in 
different hearings.
    Even though you don't require a statement of faith, you 
would say that the reflection--you would still refer to it as a 
ministry?
    Mr. Whetstone. Yes, sir. Absolutely.
    Mr. Souder. And what you're saying is part of God's call, 
as Keith Phillips said, is there's a service side to the poor 
and to the hungry, not to just save a soul?
    Mr. Whetstone. That's exactly right.
    Mr. Souder. And, therefore, there is a service. There is a 
ministry.
    Mr. Whetstone. And, in fact, that's a component of a host 
of the religions around the world today. Not just Christianity.
    Mr. Souder. Yes and no.
    Ms. Littrell. It seems like it's really difficult to 
describe, to differentiate between what is a ministry doing the 
work of social services, and what is an organization doing the 
work of social services.
    And, you know, it might not--you have to have some kind of 
a statement of faith, but it's not a statement of religious 
faith. It's a statement of faith that we can get the job done, 
because of what we do, and because we have a desire to help 
people, and because we're good people, and we're do-gooders and 
all of that sort of thing.
    Mr. Souder. I don't believe that's a correct analysis of 
the program. We had this come up at one of our other hearings. 
A faith that isn't defining is not the dictionary definition of 
faith.
    In other words, faith that there are mountains because I 
can look out there and see it is not what this public debate is 
about. This is about whether or not you can have faith in a 
power higher than an individual, and whether groups that 
believe that should be eligible for government funding.
    And if you don't believe that, that's fine, but that's a 
different position than whether there's a faith-based position.
    Ms. Littrell. And I think it's the articulation of the 
faith.
    Mr. Souder. Let me move to a couple of other people now. 
Reverend Cowles, give your view on it.
    Rev. Cowles. I think I can illustrate your question in a 
quick story. Darrell, who's an alcoholic, came to the food 
ministry, got an apartment. He came to his church meetings. He 
gave his life to Jesus Christ. Wants a higher power.
    Darrell called me yesterday morning and said, ``Pastor 
Dean, my first day on the job is today. Would you pray for 
me?'' And of course I did.
    Carolyn in our church works for social services, but he 
could not have called her at her office that morning and asked 
her to pray for him, I assume, because if she was found praying 
over the phone on government time, I would assume that would 
bring a problem. Not because she doesn't care as much for 
Darrell as I do, but because of her limitation in her 
workplace.
    She could not provide that. I could, because there were no 
restrictions on me. And I think that is why faith-based 
organizations that we work with are very successful. Because 
they can devote their full time, and don't have to dance around 
that. It's effective. And Darrell got to work, and he came back 
and called me afterwards and said, ``I kept my first day on the 
job, and I'm sober.'' So I think you can do it more overtly in 
a faith-based organization.
    Mr. Souder. Let me ask, Ms. Littrell raised another issue, 
Mr. Cote, that was almost directly opposite of what you said a 
little bit ago. She believed that people who are eligible for, 
she didn't even say ``eligible.'' She said people are more 
effective if they have the appropriate education and training. 
Do you agree with that.
    Mr. Cote. In some ways. Like I say, my staff consists of, 
I've seen guys that, I can think of one right offhand. He has a 
hard time speaking English, so I put him on the front desk. He 
wasn't the best person I could put up there, but it helped him, 
and he worked through his fear of the phones.
    Mr. Souder. This really came up in San Antonio in the 
debate, because one of the men, even though we were at Freddie 
Garcia's place, said Freddie's people shouldn't be talking to 
drug addicts, because they don't have any training to work with 
drug addicts. In fact, that whole Victory Life Fellowship 
program all through Texas was nearly decertified under the 
Governor of Texas, not named Bush, because even though they 
granted a mental health division, and it was the most effective 
single program that ever existed in the United States for 
getting people off the street, the fact is they didn't have 
licensed counselors.
    Mr. Cote. And they tried that in the Houston challenge and 
Bob Woodson and myself and Roger went to the Alamo. Because 
they were trying to put Freddie out of business for 
decertification.
    Mr. Souder. Do you basically agreed with my suggestion, I 
know Bob initially did, on the ZIP code? You're suggesting that 
there's something else that's effective in the community, other 
than just having a college degree or certification?
    Mr. Cote. You have to personalize it. I don't go for this 
some places taking a number. I was with Marvin in a shelter in 
Austin, and I wanted to see someone, and they called it D17 or 
whatever it was. And that's so depersonalizing and dehumanizing 
or whatever.
    I call everyone Mister. That's what they're called at our 
shelter. And I have as my staff either the residents or former 
residents. Again, because I say, it takes a duck to know a 
duck. They've walked right where they walked. Who better to 
know how to relate to them than someone that's been there.
    Mr. Tollefson. Mr. Souder, may I ask to be excused, please? 
I have a grandson that needs my attention.
    Mr. Souder. Sure. And I skipped over, do you want to make 
any closing comments before you leave?
    Mr. Tollefson. Yes. I think you would be stronger in your 
position to advance the services of churches and synagogues and 
temples and other places if you would refer to this as 
religion-based, not faith-based. Because when you get into 
faith, you get into issues of chosen-ness, and the Belief. And 
it becomes exclusivist and destructive.
    So if you could refer to it as religion-based, I think it 
would be stronger.
    My apologies, sir, for leaving, but I'm going to pay 
attention to my grandson.
    Mr. Souder. I appreciate that. And let me assure you, as we 
work through this, that one of the things that has come up, and 
this needs to be understood, as I've told people originally in 
the administration, I said, ``I don't think this is going to 
work.''
    I have one area of my hometown that is where the main 
housing complex is. It's half Bosnians, which is Muslim, and 
half Burmese, which is largely Buddhist. And if there had been 
a, quote, faith-based organization, and they had either bowed 
to Allah or had some kind of a tribute to Buddha, the community 
would have exploded if somebody senior had been in that area 
that was a Christian.
    If we do this in Federal funding, everybody, including 
Orthodox Jews, who are very rigid in their beliefs, or Muslims, 
when we get into this area, this is causing a lot of 
consternation. The direct government funding. But it's these 
kind of discussions that are helpful. Thank you for 
participating. I'd be happy to excuse you.
    Mr. Tollefson. Thank you. It's been my pleasure.
    Mr. Souder. I wanted to ask you, Mr. Anderson, you've been 
listening to some of this. You have a statement of faith, as 
well. Do you think that people, because in some of the 
organizations, clearly, I'll have to ask Ms. Robinson next to 
comment.
    But in her organization and Ms. Littrell's organization, as 
I understand it, they would welcome people that don't 
necessarily share their statement of faith. And they presumably 
get volunteers where that isn't necessarily the driving issue.
    Would your organization, if that wasn't the driving issue, 
would you get the volunteers to be able to administer it in the 
same way? Or is it so intertwined as part of who you are, who 
gives you the money, and who gives you the support, that you 
can't really separate it for those who say, ``Why you can't 
separate it?''
    Mr. Anderson. For us, that can't be separated. And I think 
I'm hearing some confusion between an individual's statement of 
faith and an organization's statement of faith.
    Individuals can be believers in different environments, 
secular and nonprofit and religious organizations, and express 
their faith and live with their values. But what we're talking 
about here is faith-based organizations.
    And for Compassion, the integration of sharing values, of 
sharing beliefs as a part of ministering to and taking care of 
the needs of children around the world is completely 
integrated.
    All of our donor base, I would say 95 to 98 percent of our 
donor base are people of faith. So for us to then try to 
segregate and say these are activities with faith components 
and these are activities which aren't really wouldn't work in 
our organization.
    Mr. Souder. And do you believe part of the power of your 
organization is that commitment of faith?
    Mr. Anderson. Absolutely. It goes to the core of our belief 
of what we're trying to cure, in terms of poverty around the 
world.
    Many organizations meet the needs of what we would call 
symptoms of poverty through food, clothing, medical needs.
    We do the same. But to ignore the component of a spiritual 
aspect of someone's life we believe is missing a large 
component of what poverty is all about.
    Mr. Souder. And one of the common things we've heard at the 
hearings, as well as outside and particularly from media 
debates is that, well, if had you an overt goal to evangelize, 
that should be done with purely private funds, and that's a 
different goal.
    But part of the problem here is that this is the goal of 
church on Sunday mornings, and evangelizing ministries, such as 
Campuses for Christ, the four-step plan to give your soul, from 
a Christian perspective. Clearly other groups evangelize. But 
this isn't evangelizing, per se. It's dealing with the 
spiritual. But it's part of a mix that's also helping people 
who are hurting, reaching out in the social service side 
without parking the spiritual over in this corner.
    The specific question is, can it be in the public arena, 
other than outside the church building in straight evangelism? 
Is that a fair statement?
    Mr. Anderson. We really are fully integrated. I think our 
society is trying to say, can we compartmentalize a faith 
component in a doing well and doing good component? And if you 
study the philosophy of how we believe people develop, those 
things can't be separated.
    So for us, that would be very difficult.
    Mr. Souder. Ms. Robinson, when you hear some of what we've 
just said, and clearly the Methodist tradition was mixed. John 
Wesley would have shared that view. Leadership kind of varies 
church by church. We have a lot in my district that would have 
a somewhat similar view.
    How do you say to people like that say you ought to stay 
out of any arena that involves direct government funding or any 
kind of delineated funding? You can't even have inadvertent 
proselytizing with indirect government funding. Should they not 
be able to have part of the program?
    Should Catholic schools not be allowed to have a bus, as 
opposed to educating? Which right now they can't have a bus, 
and they can't get moneys for the teachers. The Supreme Court 
rules the computer is nonsectarian. The software is sectarian.
    Should they be able to bid on an abandoned building, even 
if they have an overt religious message? Do you favor tax 
deductions?
    Ms. Robinson. I don't have a problem with separating 
programs. I think it's hard for me to really understand how you 
can't, because we always have. So I've never, even though we're 
Methodist, there was never any intention on promoting religion 
in our organization.
    I mean, what happened was in 1981, they saw a need, and we 
opened the food pantry in a church basement.
    A few years later, they saw a need with ex-offenders 
getting jobs. We opened a job center in another church 
basement. Soon we moved into one building. And it was never a 
part.
    We really address common sense basic needs for people. And 
religion is just not part of that. The people who come to us 
are in such crisis, they don't even talk about religion.
    And for myself, what I witness in our organization is when 
people get stabilized and don't have that crisis pending is 
when they will ask you, ``Do you know a good church I can go 
to?'' Or, ``This is my interest. Can you tell me which church 
in this area that I live in might be a good place for me to go 
to?'' And that's as far as it goes.
    And we might not even refer them to a Methodist church. We 
don't have any kind of----
    Mr. Souder. Now, that's your view. What I'm curious about 
is what do you think of other people at the table who don't 
have that same view? Should they be shut out.
    Ms. Robinson. I think everybody here does good work. And I 
think everybody here does work that is needed in communities. 
But there has to be a distinction between someone who says, 
``You need to go to this church service and then I'll give you 
a meal.''
    Mr. Souder. So do you favor the tax deductions for these 
groups.
    Ms. Robinson. I don't know that I understand the tax 
deductions.
    Mr. Souder. Currently if you write a donation to a church, 
you get a tax deduction.
    Ms. Robinson. Because that's a personal choice. I'm 
choosing to send my money to Step 13.
    Mr. Souder. So you would support where nonitemizers could 
give money to----
    Ms. Robinson. Sure.
    Mr. Souder. What about Compassion Capital funds, where 
groups that aren't going to receive government money, like Mr. 
Cotes or Mr. Anderson, if he had a local affiliate, could go in 
and learn how to set up these different organizations, that 
could then do it for private philanthropy?
    Ms. Robinson. I have mixed feelings about that. I believe 
in capacity building. Obviously, DenUM has had a lot to do with 
that in the last 20 years. But I have a problem with 
redirecting direct service money.
    We have huge needs in Colorado for child care. If we're 
going to have 10 recipients go back to work for 20 hours and 
possibly up to 40 hours in the reauthorization bill, we've got 
to pay for child care for that. And I have a hard time 
diverting $30,000 for somebody to go to learn computer skills 
when you can go to your library to learn that.
    I learned on-line skills at the library. I don't know. It's 
hard for me to say, ``Yeah, that is well worth it,'' 
particularly when our clients at DenUM, more than 70 percent of 
them, are in some kind of government program. So old-age 
pension, Social Security, disability, some kind of housing, 
some kind of government assistance. And that's not enough.
    We're always going to need programs with community 
programs, or if you choose to go to one of faith, whatever 
works for the client.
    Mr. Souder. Let me throw out another statement, and then, 
Mr. Cowles, you've worked with this a lot, and you're sitting 
on the review panel, so I'd like to hear your reaction to this.
    As somebody who's been involved in and out of government as 
a staffer in the Senate and as a Member of Congress, what's 
become clear to me in local volunteering communities is it 
doesn't matter whether the Republicans or the Democrats are in 
power. The social spending is flat.
    People can claim that it's a partisan issue, but the fact 
is social welfare spending is an inflation adjuster in almost 
all categories, except for AIDS funding, breast cancer, and 
things like that.
    In general, they're not anxious to promote tax increases. 
Education always gets money, whatever the latest disease is 
gets money, and when we have war and national security, we have 
financial demands.
    So we're looking at relatively flat spending. We're looking 
at flat funding. Nevertheless, the problems seem to be getting 
greater. Part of the idea is to try to get other groups 
involved, some of whom may or may not be more effective, 
because they can deal with it holistically. Because at least a 
segment of the groups believe by dealing with it, there are 
medical results, like we heard on the first panel, and 
otherwise.
    And domestically, this is most directly related to those 
who don't have resources. In other words, in the suburban 
communities, they theoretically go to the private sector and 
raise funds. And then take the United States and go 
internationally.
    We can't even begin to address the AIDS question if there 
weren't more groups like Compassion arguing out there. And, to 
me, if they get excluded from the debate, that leverage is lost 
on those of us who are voting in Congress. Or Feed the 
Children.
    If Feed the Children wasn't out in the world right now--do 
you know what percentage of the United States is providing the 
most world aid right now?
    Mr. Whetstone. It's more than 80 percent.
    Mr. Souder. And if we didn't have that, and we exclude 
these groups, the world would roughly collapse. And my concern 
and some of the recent debate is we're actually going backward. 
That some of these funds that have been going back to the 
various groups are going to be tightened up.
    You've been sitting in looking at the applications, you've 
worked on it in Indianapolis. You've now been in Denver. How do 
you see some of what's sorting through here?
    Rev. Cowles. The funding is flat. I don't think the direct 
subsidies are going to work any longer. We've tried that. We've 
seen it. It's not going to work. It's going to work when local 
groups get together.
    We've long advocated this approach to the intermediary, to 
the capacity building, and it's wonderful it's finally 
happening with this President. Of course, it's $26 million the 
first round and $30 million the next. But it is working. Dr. 
Ashton is here from VJVA who got part of the capital fund in 
Colorado. And she's working with 361 organizations. Mine is one 
of them, Crossroads of the Rockies. Welfare moms, crack addicts 
get computer skills to become grant writers. They never did 
that before, and they've lifted them up.
    And bang for the buck in stewardship is another key thing 
for me. This money, this $26 million that we have authorized 
spread across the country, did far more. And Bobby Polejo would 
tell you story after story after story of organizations that 
have benefited directly by increasing their ability to see 
funding from the private sector, from individuals.
    Which really, like I said in my opening statement, all came 
before the great welfare society came about.
    Not to say government isn't responsible to do things. I'm 
not advocating that. But I am saying that this kind of approach 
is cost effective, and it reaches the most people for the least 
amount of money, and it increases the organizations like Faith 
Partners.
    $100,000 and two staff members are doing all of that great 
stuff they're doing. $100,000 in government bureaucracies are 
gone in a toilet seat on a B1 bomber. So we're very, very 
excited to see this kind of thing happening.
    Mr. Souder. Ms. Jaramillo, do you have lots of small 
organizations in your coalition too? And were they included 
before? Could you describe a little more in-depth your Faith 
Partners group?
    Ms. Jaramillo. Faith Partners was basically the church 
leadership. It includes the evangelical line, as well as the 
main line that operate downtown and serve groups like the 
homeless, and EA Sam, and all of those groups.
    But when we first started, we started with a dialog of how 
we were going to respond to welfare reform in our community. 
And we really felt that there was a spiritual component to 
breaking the cycle of poverty. Any good welfare administrator 
could lower the caseload of any FAFDC caseload or TANIF 
caseload. But to really help those families escape, in terms of 
leveling the playing field for those individuals, we knew that 
it was going to take more than just a handout.
    Many people in churches are so tired of feeding the same 
people for 15 years. You feed the same families coming to the 
soup kitchens. And you get to know them like they're your 
neighbors, because they become familiar with you.
    If you work in those ministries, you see the same people 
over and over again. So what you're doing is you're alleviating 
the suffering of poverty, but you're really not breaking the 
cycle. And in order to do that, we knew we had to give of 
ourselves. Pour out who we were. We're not trying to make them 
like us. What we've learned in the mentoring process is the 
person who's changed the most at the end of the mentoring term 
are the mentors, not the families. Because we have learned so 
much about surviving, and about the whole system of welfare, 
and our mentors become the strongest advocates for these 
individuals.
    And we have both--one of the positive things that came out 
of the Bill Moyer show was we made a strong commitment to 
seeking mentors in secular organizations, like Rotarian clubs 
and lots of different clubs. So we are in the process of 
developing teams, mentoring teams from service clubs.
    Because if people come to us and want mentoring, we'd like 
to have a choice between a secular team and a faith-based team. 
But it's difficult. The most difficult part of our work is 
trying to get the mentors to commit to 1 year of mentoring 
these families.
    And so without the motivation of the scriptures and the 
compassion that you have from your own faith to motivate you to 
do that, there's no reason on Earth for you to want to do that. 
There are so many disappointments. So many times that families 
make the wrong decision and don't progress, and so without your 
faith, you can't bring closure to those relationships.
    Everything we do is relational. And that's a piece we bring 
to social services that isn't there now. The department here 
can provide so many resources to families.
    They can provide avenues for education, for transportation, 
for childcare. And, yes, those are limited funds. But honestly, 
the people who really need them are getting them.
    But what they can't provide is the coaching, the 
encouragement, and the nurturing that's required for some of 
these families who are so broken that they need that additional 
assistance to break the cycle of poverty in their lives.
    And we don't just mentor the head of household. We mentor 
the entire family. So we have people that are mentors that are 
coming into the homes and tutoring two and three times a week a 
family, the children of these families, and helping the parents 
understand how structured study time helps to improve the 
skills of the children in school, and their ability to achieve 
academically.
    So we're not ignoring the needs of the children. We match a 
mentoring team with the family. We examine and assess the 
entire family's needs, and then we link them to additional 
community resources that they may need, and we pour our lives 
into them. And then as a result, our faith and everything that 
we give is just deepened and returned back to us. I don't know 
if I answered your question or not.
    Mr. Souder. Reverend Cowles, I had a--given that you've 
worked with a number of programs, and you're working with some 
of the Compassion Capital fund directly, one of the concerns I 
had as a sponsor of the faith-based amendments, and why I'm 
kind of backing up a little bit, is at one of our hearings in 
Washington, we went through a panel and said, ``Would you take 
Federal funds?'' And everybody expressed an interest. And it's 
on the public record.
    The administrator in Indianapolis that was recommended by 
Steve Goldsmith, when the question came through, ``Would you 
hire a Jew,'' since most of the members were Christian, Teen 
Challenge said no. A couple of others said no. They'd certainly 
service them, treat them well. They--just like an Orthodox 
Jewish organization wouldn't hire a Christian.
    But the African American leader said, ``Well, is that the 
only way I can get the money?'' And he's one of the biggest 
churches.
    Rev. Cowles. Eastern Star probably. Pastor Johnson.
    Mr. Souder. Well, I guess there's a Judeo-Christian 
tradition. ``Maybe I would if that's the only way I could get 
the money.'' And that prompted the question, ``Would you hire a 
Muslim?'' But basically those that didn't have a religious 
variable said no. Those that did say yes.
    But when we ran into the question of whether they would 
even change their ministry in order to get the money, even if 
previously they didn't have those guidelines--which has been 
some of the fear some of us have had. ``Even if currently not 
restricted, if we get the money now, will new regulations come 
in that will undermine it?''
    Which leads to a second question. If you can take a few of 
these together, and Mr. Cote may have a response for this too. 
If the church is more integrated, which I actually believe is 
good, in the Black and Hispanic communities often more than in 
the White communities, therefore it's the only social entity 
left.
    They don't control the local schools in the neighborhood. 
The only services left in the neighborhood are at the church. 
And if we exclude the churches, we, by definition, exclude the 
people that live in that ZIP code often. We exclude the people 
that are delivering the services. Which is one of the reasons 
that we had a Capital Compassion fund, so we can tell how many 
501(c)3 won't affect that church.
    Would you describe some of what you're seeing, and how this 
changes things?
    Rev. Cowles. It takes a long time to change what you've 
accepted. We're trying to train our folks that's not the 
environment anymore. Yes, the environment is you can't use 
those funds to pay Pastor Williams, but you can use those funds 
to hire Sister Williams to distribute food or do the after-
school program that helps with tutoring, that doesn't have any 
religious proselytizing.
    She's doing a good job for the community. You do have to 
have a separate board. The church board. A separate 501(c)3. 
And this is what JVC board is doing here in Colorado, to teach 
them how to set up systems and structures that don't compromise 
the church.
    And in my written point I've said I don't know whether it's 
a curse or it's last rites. Because too many organizations 
have, you know, chased the money, and they've diluted their 
passion and vision, and consequently their outcomes have been 
compromised.
    So, yes, it's changing, but it takes a long time to change 
those--it's like a quote I use in my book. It only took Moses 4 
days to get the Hebrews out of Egypt. But it took 40 years 
while they were wandering to get Egypt out of the Hebrews. It 
takes a long time to understand there's a new day. There's a 
new way to do it that's a win-win for everybody.
    Churches have to be careful. Don't compromise your 
position, and don't just accept money and change your policy. 
Because that dilutes who you really are. Mary Nelson in Chicago 
is a great example of that.
    She took a little Lutheran church that was 100 years old 
that was dead, dead, and dying. Nobody else would come into 
that whole side of Chicago. And now it's Bethany Recycling 
Enterprises. And now it's doing the whole 9 yards through the 
faith-based organization. This with all the appropriate fire 
walls if you will.
    We're urging people in our organization to continue to seek 
it appropriately.
    Mr. Souder. This is mostly focused on domestic. We're just 
looking at the edges of this internationally. One came down in 
Central America as far as guidelines. But I want to followup on 
two things with you, Mr. Whetstone, and then I'll see who wants 
to make any kind of concluding comments here.
    You mentioned in the--in your opening statement about the 
Denton amendment on international. And you were wondering would 
we be able to do that domestically.
    Can you describe that? What would prohibit us from doing 
that domestically now?
    Mr. Whetstone. A good example was when Hurricane Mitch 
struck Central America, the Denton Amendment provided that when 
the USAID declared a disaster somewhere in the world, the 
United States will help provide aid, and government resources 
can be used to transport commodities and assistance to those 
areas. We used government paid freight on ships to move 
containers of shelf-stable milk and other nonperishable foods 
into Honduras, Nicaragua, El Salvador, and Guatemala.
    The Oklahoma National Guard has a fleet of C130's. Every 
day those planes fly training missions. Most of the time they 
go out with sandbags to simulate having cargo on them, so that 
the pilot can be used to what happens when you do this maneuver 
with cargo on it, as opposed to an empty airplane.
    Obviously, they don't have to take military equipment every 
time they go up, but why couldn't they take assistance from 
Feed the Children in to Elkhart, IN, or into a small group or 
collection of churches in West Virginia, or to an Indian 
reservation in South Dakota? It's just basically the same 
concept.
    You had spoken about the disposition of Federal property. 
That can be taken one step further in a program like the Denton 
amendment, where you could actually utilize government 
resources and government equipment and government property 
short-term for the need of that circumstance.
    Mr. Souder. One of the things that I have figured out is 
that--maybe I was a little slow on the uptake. But as we moved 
from AIDS and homelessness into areas where there were existing 
groups that wanted the money, for example, drug treatment, 
there are very high-paid organizations that don't want any drug 
money to go to these little neighborhood-type groups. They're 
very worried about the competition. It's different than the 
other.
    My sense--and I'd first like to lay this out to you and Mr. 
Anderson. When I recently spoke with Tony Hall about the world 
food question, he said in Ethiopia there was an organization 
out of my hometown, because a former Congressman had been an 
ambassador to Ethiopia. So there was a whole bunch of 
Ethiopians who had only heard of Fort Wayne, IN.
    Through that, Senator Marah became involved. And she formed 
an organization down in Ethiopia for food distribution, which 
he said is the most effective program in that area that he had 
seen.
    And one of the problems was when often the U.N. or the US 
tries to organize some disaster relief, or they try to 
distribute that food, the corruption level is incredible. The 
efficiency levels are a huge problem.
    And part of the reason they started to turn to faith-based 
organizations in reaching out with this type of thing is that 
there is forum. For example, in Ethiopia, they were finding 
most of it stolen. Senator Marah said, ``We've never 
distributed food before.'' The two people that the government 
had found guilty on stealing--she said she would do it, ``Only 
on the condition that I can use them.'' And she included them 
in the organization, with accountability. Who later, by the 
way, after seeing the actions, I believe they then became 
Christians in the process, which was covert, not overt. Because 
they couldn't believe somebody forgave them and included them 
in the operations, and put a process in place.
    What I want to know is OK, that's an Ethiopia story. Are 
you seeing this in other areas of the world where the Federal 
Government, the United Nations, and other entities are coming 
to your two organizations and saying, ``Look, we're having 
problems with distribution''?
    And it's one of the things we worry about in Congress. 
Because one of the reasons it's politically hard to do is 
people back home are saying, ``Man, we've got a virus, and 
you're sending money over to Africa,'' and then they read 
somebody about putting a Swiss tanker down or stealing from it. 
It's a political nightmare. They weren't excited about it in 
the first place.
    Can you elaborate a little bit about what you've seen in 
your two organizations?
    Mr. Anderson. We've really experienced that most people are 
desperate, and even governments are desperate to find 
organizations that they can trust and rely on to have delivery 
mechanisms that are dependable. You have to work very hard to 
make sure that happens.
    I think faith-based organizations, like Compassion, who are 
working for the local infrastructure of the church has a real 
advantage in that respect. Those organizations have value that 
many times are very against the culture that they live in, in 
terms of accepting bribes, accepting corruption as a part of 
their lifestyle. So no organization is immune from that. I'm 
sure everyone in this panel that you've listened to has 
experiences that are bad. But I would say the faith-based 
organizations probably have an advantage in that aspect.
    And Compassion has developed a history of integrity, 
largely because of the partners we work with. We also put a lot 
of time and energy into auditing and quality control issues and 
training issues. Almost every one of our staff around the world 
are nationals. We don't put ex-pats out in the field and ask 
them to manage the programs.
    And there are qualified nationals around the world who are 
faith-based individuals working with our organization who have 
high standards. And that's part of what we teach and train as 
we develop our partners around the world.
    Mr. Souder. Mr. Whetstone.
    Mr. Whetstone. That's exactly right. And it's not just 
limited to Africa. The former Soviet Union is probably even 
worse than our experiences in Kenya and South Africa. And 
you're right by providing our services through nationals.
    We can provide so much more and we can avoid some of the 
problems in places like North Korea, where they need it worse 
now, because worldwide funding is drying up. That still doesn't 
mean millions of children aren't starving to death--we don't 
hear that story very often in America--because there is no aid 
for them.
    One of the things that we experience is not just the 
corruption, but because those organizations are so big, like 
the World Food program and the United Nations--UN HCR and other 
organizations, is they can't respond quickly enough.
    A real good example of that was right after Afghanistan 
hostilities broke out, millions of IDPs, internally displaced 
people, fled out of where conflict was going on into western 
Afghanistan, and out into the community of Herat.
    In the Maslakh camp, the World Food program set up camps to 
house these people, to provide shelter and sanitation and food 
and that sort of thing. But they were arriving after several 
days of walking, carrying anything they could carry. Carrying 
children, carrying infirm adults, carrying whatever possessions 
they could carry with them. And they got there after several 
days exhausted, and so many in even poorer health.
    The U.N. wasn't equipped to handle 5,000 to 10,000 people a 
day. But at the same time, to ensure that we weren't helping 
enemy combatants and other people involved in the conflict, you 
had to be registered with the World Food program before you 
could get aid.
    So what do you do with these people that are coming in 
10,000 at a time? These little informal camps sprung up around 
the main camp of 500,000 IDPs. That's where we went in.
    We recognized it immediately. We didn't try to take over 
what the World Food program was doing. We didn't try to change 
what they were doing. We didn't go in and cry, ``You're not 
taking care of these people.'' We saw the need. We stepped in. 
We were flexible, and we ministered to them.
    Mr. Anderson. I would add one more observation that you 
reminded me of, the anecdotal evidence that we've experienced 
in our organization. We began 50 years ago in South Korea 
during the Korean conflict. Many of our organizations started 
during that time, and many of them focused on South Korea.
    We were able to focus on computers, advertising programs 
were used to program and manage the data. And today, South 
Korea is one of the largest economies in the world. And we're 
certainly not taking credit for that. But 25 plus percent 
profess to be evangelical Christian.
    Compassion has been to North Korea several times, where 
faith has completely been eliminated as part of the equation in 
people's lives. It's not allowed at all. And the values and the 
corruption that has happened since those two countries have 
gone two different paths is quite a contrast. And I believe 
there's a lot to be learned from watching those two different 
decisions.
    Mr. Souder. Have either of your organizations been in Iraq?
    Mr. Whetstone. We're currently in Iraq.
    Mr. Anderson. We're not.
    Mr. Souder. Are you in Afghanistan?
    Mr. Anderson. No.
    Mr. Souder. Have you expressed an interest in getting into 
either of those countries?
    Mr. Anderson. We're really slow. We're not a relief and 
development organization. We're a long-term investment into 
individuals. So when we start somewhere, we're going to be 
there 20, 30 years. We follow the lives of children. So we're 
very slow to go into new countries. And the second factor is we 
partner with the local infrastructure and churches. And that 
has to be fairly well developed.
    Mr. Souder. Is there anything more? One more question, Mr. 
Whetstone. Since we're heading over there and we're going to be 
meeting with the President and the former king, besides making 
them aware that you're there, do you have anything you want me 
to raise.
    Mr. Whetstone. Again, Iraq is a very touchy situation right 
now, because it is hard to get in and do the relief work that's 
needed to be done. It's hard to get things across the border.
    But anything that can be done to facilitate that through 
means other than just the United Nations would be appreciated. 
Because we're efficient and we're effective.
    And I think that's really what the whole debate around the 
faith-based initiative ought to be. Who's effective and who's 
efficient.
    Mr. Souder. It's interesting to add the international 
component, because it's very difficult in the United States. 
But when you go into a Muslim community with a Christian 
organization you have to say, ``Look, the people wouldn't come 
here if they weren't Christian in their motive.''
    And trying to explain to Momar Khadafy that we're going to 
be able to do in 2 days what others couldn't do in months. 
Weapons of mass destruction are important, but there are other 
values. He's going to question Christian values and other 
things related to Israel, related to Christians, and what 
rights you have, women's rights in these countries, and how if 
they want our engagement beyond just minimal, and yet their 
culture is not going to change.
    In eastern Europe, this is a huge question too with 
Orthodox, at least women. The Orthodox faith, the missionary 
church, they've been invited to Bulgaria, because they are 
interested in opening a hospital. But looking at the missionary 
church, some of those people might actually give somebody a 
Bible.
    It doesn't mean that they push it hard. But it means in 
your own town, you now have evangelicals in your midst. These 
people are giving up their careers because they have a strong 
faith. So the limit is far more than just domestic. And we're 
playing it out on the domestic end.
    Let me give you each, if you would like to take anything at 
the end of the concluding comments, and we'll go through again 
with Mr. Whetstone starting.
    Mr. Whetstone. Again, just thank you for the opportunity to 
come here and bring these issues. I think, as the debate has 
shown today, there's a lot of difference of opinion. I think 
there's a lot of misunderstanding of what the faith-based 
initiative is all about.
    At Feed the Children, we're a little bit different from 
most. However, we recognize the importance of that in the work 
that these organizations do. And we want to support that.
    We recognize that the assistance that we provide is a 
simple, short-term assistance. And that doesn't change people's 
lives. Maybe the fact that we gave it to them might change 
their lives. And our example might change their lives to help 
break those bonds of poverty. But it takes more, and we want to 
support those churches and those rescue missions, and help them 
and enable them to do more with less.
    Again, effectiveness and efficiency, regardless of how you 
accomplish those means. Again, if faith is involved, that 
shouldn't be a discriminator in accessing funds to do more for 
the poor, and to help eliminate the problem.
    So that's our standpoint is to help us do more. And if we 
can do it more efficiently than the government, so be it. If we 
can't, let us fill those gaps. And if the government can assist 
with limited resources, so be it.
    Mr. Souder. Thank you. Ms. Littrell.
    Ms. Littrell. I too appreciate the fact that you listened 
to us today, and hopefully the diverse input that you got will 
have some bearing on what goes on.
    I would like to say that I basically think what we're all 
after is success in the work that we do. That we want to see 
that the people that come to us have the opportunity to go 
ahead and lead a middle class life, if that's what they choose.
    And I don't think that there's any reason that a church 
can't do that work. The only thing that I would like to see is 
that the opportunity be there to do that without strings.
    That people be offered services that feed them, that clothe 
them, that help them when they need medical attention. That 
when they have a tooth that needs to be pulled or whatever, 
that be done without strings.
    That people that come there get the services that they 
need. If, in the meantime, they say, ``Boy, I would really like 
to have religious direction,'' let that be offered. Let it be 
available for them.
    Mr. Souder. Thank you.
    Reverend Cowles.
    Rev. Cowles. Well, again, thank you, like all the rest, for 
coming from Indiana, and welcome to our beautiful State.
    And as a person that--our partners all across the Nation, 
they're mom and pop, and they don't get on the radar screen of 
anybody except the local community. And they are desperate for 
this kind of training, this kind of support. And they can do it 
well. They can do it efficiently.
    And I guess my comment would be let's try it. I think as 
Bob said earlier, if it works, let's do it. Let's try it. 
Because for too long, these other programs and approaches 
haven't worked. We know that, and the populous knows that. 
That's why they're asking for change. That's why they're 
changing administrations. They want to change it. They want to 
open the doors.
    And I think we need to look toward the business world in 
adopting a more competitive model. If it works, you get the 
contract. And if you can produce, great. It doesn't matter how 
you do it. If you can do it, it works. That's why businesses 
rise and fail. Some make better pasta than others and people go 
there.
    So I think this is toward that end. I sense that this kind 
of initiative is getting there. To raise up, make a level 
playing field, everybody has equal opportunity to get to the 
resources. And if they can produce, then wonderful. And we'll 
all be better for it in the next 30 years.
    Mr. Souder. Thank you.
    Ms. Robinson?.
    Ms. Robinson. Of course, thank you very much for listening 
to us. And I think it's been a very interesting debate today. 
And I've learned a lot, I know, about international issues and 
things like that.
    But I still will hope that the committee takes seriously 
the separation between church and State when they're making 
their final decisions. And, you know, it's hard. We have to 
think of our vulnerable population, and putting them in the 
hands of people who truly want to help them without strings 
attached.
    Mr. Souder. Mr. Anderson.
    Mr. Anderson. Thank you. I guess I would like to encourage 
you that true faith-based organizations are not going to be 
able to segregate their thinking and their organizations. If 
they can, they probably aren't faith-based. They're faith-based 
individuals, but not as an organization.
    There's a Haitian proverb that says, ``A hungry stomach has 
no ears.'' And I think all of us are here and recognize that 
people have needs, and we're here to meet those needs.
    Some have faith-based programs and others have components 
in those programs.
    I would encourage you not to have fear of propagating what 
might be a very efficient and effective organization.
    Mr. Souder. Thank you.
    Ms. Jaramillo.
    Ms. Jaramillo. Thank you very much for allowing us to 
testify today. And I just would probably say in closing comment 
that Faith Partners really organized a response. It was the 
faith community's response to welfare reform in our community, 
and that we became the poster child of charitable choice in our 
community.
    It has been very difficult for us to continue getting help 
from our supporting churches. They'll give us volunteers, but 
it's very difficult for them to let go of some of the funds 
that they really should be giving us.
    And I see that they need to shore that up in order for it 
to be a true partnership. I feel uncomfortable with being 
totally supported by a government contract. However, I'll get 
the work done however we can get the work done. And we 
outsource the work that we do.
    I'm not mentoring families. It's the wonderful volunteers 
from those churches. And the work that we produce could not be 
done by the welfare department. And the effect that we have on 
families could not happen without our presence in their lives.
    So we stepped out in faith and tested the waters of 
charitable choice, and we're still in testing that. And I don't 
think we're going to see results. We didn't get into this 
public policy issue overnight, and we're not going to get out 
of it overnight.
    So in the wisdom of Mark Okasky, he says, ``It's taken 
generations, decades since we ushered in the entitlement 
mentality with our social policy in this country. It's going to 
take decades for us to reverse that.''
    So those of us that are just brave enough to weather the 
storm are out there. And I don't know where this debate will 
end up, but I'm glad to be a player.
    Mr. Souder. Thank you.
    Mr. Cote.
    Mr. Cote. I commend you, Congressman, and your staff for 
putting this together and having us here today. Step 13 will 
not accept Federal, State, or city moneys as long as I'm 
around. But I pray that you take a real, real hard look at 
these faith-based organizations, because I hope that they do 
get some money, a piece of the pie.
    You know, try it and see what works and why, and go with 
it. That's what we need to do is start fixing people instead of 
just feeding them, and solving problems.
    Mr. Souder. I thank you each for your testimony. My 
interest in this issue arose when one of my friends got elected 
to Congress, Dan Coates. And he became the senior Republican on 
the Children and Family Committee.
    And we went to hearing after hearing on this problem, and 
it became clear to us that unless we could figure out how to 
get a broader base of support, other than just government, we 
weren't going to be able to deal with the social questions.
    And I think there's wisdom in the words of Bob Woodson: 
``Don't be a typical White guy who sits on your duff. Get out 
and meet people.''
    I couldn't believe the story in San Antonio. And I've gone 
to see it, and I go back every few years and say, ``Are you 
still here?'' Kim Gray and Gene Watkins in Los Angeles, and 
Richard Guiness, and lots of grass roots organizations. Because 
even in the toughest areas of the United States, there are 
flowers blooming. And we need to figure out, ``OK, how do we 
nurture those flowers?''
    The debate will never end. I remember I met one guy in 
Newark who told me he was with International Harvest. ``I came 
here to save New Jersey, and then to save south Newark, and 
then to save my community area, then this block, then this 
house, and now if I can just get to one kid,'' he said.
    Because it's important what we're trying to do, and to 
reach people.
    And I ran for Congress partly because of this issue. I 
believe in trying to resolve it. Not just with direct funding, 
but in this whole range of things. It's clearly important. And 
it's too easy to ignore those that have been unfortunate. And 
I've told this story multiple times. But Juan Rivera, who was 
part of Freddie's ministry, the first time I went down there, 
the first thing he said was, ``Are you hot? Can you I get you 
some water?'' He then said, ``Can I tell you how I met Jesus?''
    And I went into one housing area after another. And I met 
about 50 or 60 people working in homeless shelters who went 
through this same process, who had been addicts, and then later 
I met another group of 50, and then met another 100 later who 
went cold turkey, in some cases, off cocaine and heroin.
    And I had just been at John Hopkins, where they said you 
couldn't do it. Look, there are multiple methods of doing 
wonderful work. Others are doing wonderful work. But for many 
people, the spiritual side is a critical component of a really 
huge transformation. How do we do that.
    And I'm reminded of the days we were at this shelter where 
people were going through the drug rehab. And this was in part 
of San Antonio where American Beauty was based off of, the 
movie. They had one lonely tree in the back yard.
    And Juan Rivera said, ``After I got off of drugs, they gave 
me a Bible, and I started to read the Bible. And every time I 
come back here, it reminds me what transformed my life and how 
my life transformed. And I praise God every day.''
    And I said, ``I feel so ungrateful because of what I've 
been given.'' And Juan said to me, ``My dream is that someday 
my kids can be like you, and have the opportunities that you 
have. And that's my goal.'' And I said, ``I feel so ashamed.'' 
And he said, ``Well, you should be ashamed. You're 
ungrateful.'' I said, ``No, I'm unashamed.'' He said, ``You 
should be ashamed. People who have been given much, much is 
expected.''
    And in trying to do that, and in trying to figure out how 
we can do this with our Constitutional provisions, how to do 
this with the fact that lots of Christians wouldn't want their 
tax dollars going to people that hit the mat and pray to Allah 
at 5 is a condition for getting sued.
    This is not an easy matter to work through. And we're 
trying to work through it and yet say, ``Look, there are not 
enough people who are focused on helping people who are in 
need. And we can't have these divisions and bitterness among 
us, because we're so few.'' And we're trying to work that 
through. And it's going to be very difficult to get anything 
done.
    This year will be like this, but I'm hoping as we get 
through the election year, we can come back through and move 
some of these things, at least move in the executive branch.
    Last statement. I feel compelled to say, and I'm sorry Mr. 
Tollefson is not here, but the National Day of Prayer is not 
funded by the Federal Government. It has not nothing to do with 
it. And Shirley Dobson and some other people formed that.
    And they're required to have all kinds of people in it, 
because it's a private sector project that anybody can join 
from different programs. And you can argue about that, but it 
really wasn't relevant. And I didn't feel that was a fair 
statement to have in the record unresponded to.
    And I also think Colorado Springs is a good place to come 
to have a public hearing. There is a lot of diversity in 
Colorado Springs, as you broach the different issues. And I 
wanted to put that on the record.
    Thank you for taking time out of your busy day. And more 
importantly, thank you for each of your organizations working 
to help people who desperately need your help. And if you could 
express that to those people who are working back in your 
organizations, because without them, there would be people who 
would be both hungry and hurting and also need spiritual help 
too.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 1:16 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4492.042

[GRAPHIC] [TIFF OMITTED] T4492.043

                                 <all>

</pre></body></html>
